<html>
<title> - [H.A.S.C. No. 112-55]TOTAL FORCE READINESS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




                         [H.A.S.C. No. 112-55]

 
                         TOTAL FORCE READINESS

                               __________

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON READINESS

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             JULY 26, 2011


                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

                  U.S. GOVERNMENT PRINTING OFFICE
68-163                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ea8d9a85aa899f999e828f869ac4898587c4">[email&#160;protected]</a>  
  


                       SUBCOMMITTEE ON READINESS

                  J. RANDY FORBES, Virginia, Chairman
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
JOE HECK, Nevada                     SILVESTRE REYES, Texas
AUSTIN SCOTT, Georgia                JOE COURTNEY, Connecticut
FRANK A. LoBIONDO, New Jersey        DAVE LOEBSACK, Iowa
CHRIS GIBSON, New York               GABRIELLE GIFFORDS, Arizona
VICKY HARTZLER, Missouri             LARRY KISSELL, North Carolina
BOBBY SCHILLING, Illinois            BILL OWENS, New York
JON RUNYAN, New Jersey               TIM RYAN, Ohio
TIM GRIFFIN, Arkansas                COLLEEN HANABUSA, Hawaii
STEVEN PALAZZO, Mississippi
MARTHA ROBY, Alabama
                Ryan Crumpler, Professional Staff Member
               Vickie Plunkett, Professional Staff Member
                   Christine Wagner, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2011

                                                                   Page

Hearing:

Tuesday, July 26, 2011, Total Force Readiness....................     1

Appendix:

Tuesday, July 26, 2011...........................................    33
                              ----------                              

                         TUESDAY, JULY 26, 2011
                         TOTAL FORCE READINESS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Bordallo, Hon. Madeleine Z., a Delegate from Guam, Ranking 
  Member, Subcommittee on Readiness..............................     3
Forbes, Hon. J. Randy, a Representative from Virginia, Chairman, 
  Subcommittee on Readiness......................................     1
McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     2

                               WITNESSES

Breedlove, Gen. Philip M., USAF, Vice Chief of Staff, U.S. Air 
  Force..........................................................     9
Chiarelli, GEN Peter W., USA, Vice Chief of Staff, U.S. Army.....     5
Dunford, Gen. Joseph F., Jr., USMC, Assistant Commandant, U.S. 
  Marine Corps...................................................     8
Greenert, ADM Jonathan W., USN, Vice Chief of Naval Operations, 
  U.S. Navy......................................................     6

                                APPENDIX

Prepared Statements:

    Breedlove, Gen. Philip M.....................................    80
    Chiarelli, GEN Peter W.......................................    39
    Dunford, Gen. Joseph F., Jr..................................    67
    Forbes, Hon. J. Randy........................................    37
    Greenert, ADM Jonathan W.....................................    54

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Palazzo..................................................    93

Questions Submitted by Members Post Hearing:

    Mr. Forbes...................................................    97
    Mr. LoBiondo.................................................   107
    Mr. Loebsack.................................................   109
    Mr. Owens....................................................   110
                         TOTAL FORCE READINESS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                 Subcommittee on Readiness,
                            Washington, DC, Tuesday, July 26, 2011.
    The subcommittee met, pursuant to call, at 3:02 p.m. in 
room 2118, Rayburn House Office Building, Hon. J. Randy Forbes 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. J. RANDY FORBES, A REPRESENTATIVE 
       FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON READINESS

    Mr. Forbes. I want to welcome all of our members and our 
very distinguished panel of experts to today's hearing focused 
on total force readiness and how we resource, train, and equip 
our military for the challenges that they face.
    No one will dispute that we have the most capable and 
professional military in the world. However, I worry about our 
state of readiness, not for mastheads on the horizon or columns 
of tanks rolling towards us, but for the looming defense budget 
cuts many in this Congress seem willing to inflict on our 
military.
    Two weeks ago, this subcommittee heard about the challenges 
the Navy has faced in preserving and enhancing its readiness 
and current capabilities. I suspect we will hear today how our 
other military services face many of the same challenges and 
how they all would be negatively impacted by hundreds of 
billions of dollars in budget cuts.
    As we consider our deficit, Federal spending, and the 
impact on our defense budget, I believe we should be asking 
four questions: First, what are the threats we face? Second, 
what resources do our combatant commanders need to protect us 
against those threats? Third, what do these resources cost and 
how can we obtain them as efficiently as possible? And fourth, 
what can we afford and what are the risks to our Nation if we 
do not supply those resources?
    I believe many in Congress and the White House have been 
asking only the portion of question four that asks how much 
they want to spend, and have been ignoring the other questions 
almost entirely.
    However, in January, Chairman Mullen was quoted as saying 
that any additional budget cuts can almost only be met through 
substantial reductions in force structure, which goes against 
the national security requirements which we see in the world we 
are living in.
    Similarly, just before his departure in June, Secretary 
Gates warned that no further reductions should be considered 
without an honest and thorough assessment of the risk involved, 
to include the missions we may need to shed in the future.
    I realize that our witnesses today are in a difficult 
position. I would simply ask: Help us help you. I hope our 
frank discussion during this hearing can help us all better 
understand the seriousness of the challenges we face and those 
still ahead. We must not let our legacy be one of overseeing 
the slow dismantlement of the greatest military on the Earth.
    We all have a responsibility to ensure our men and women in 
uniform are given all the tools necessary for the job we have 
asked them to do, and I look forward to hearing from our very 
distinguished witnesses.
    Today, we have with us General Peter W. Chiarelli, the Vice 
Chief of Staff of the U.S. Army. We are proud of his service to 
our country and we are delighted to have him with us today.
    We also have Admiral Jonathan W. Greenert, the Vice Chief 
of Naval Operations for the U.S. Navy. Admiral, we are proud of 
your service, and we are also proud of the work we know you 
will do as the CNO [Chief of Naval Operations] of the Navy. And 
we know they made a good selection there.
    Equally important today is the presence of General Joseph 
F. Dunford, Jr., the Assistant Commandant of the Marine Corps 
for the U.S. Marine Corps. General, we know you have been at 
the tip of the spear in all the fights, and we just are honored 
to have you with your expertise and experience coming before 
our committee today.
    And finally, General Philip M. Breedlove, the Vice Chief of 
Staff of the U.S. Air Force. General, you have done a great 
job, and we are just honored to have your presence with us 
today.
    [The prepared statement of Mr. Forbes can be found in the 
Appendix on page 37.]
    Mr. Forbes. I now turn to my dear friend and chairman of 
the full committee, Buck McKeon, for any comments he would like 
to make. Mr. Chairman, we are delighted to have you join us for 
a portion of this hearing and would love to hear any comments 
that you might have.

 STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A REPRESENTATIVE 
     FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Thank you very much, Mr. Chairman.
    I am just happy to be here. I just got to shake hands with 
the chiefs down there and said I feel like I am in--maybe I 
won't repeat it. I am honored to be in your presence is what I 
said, and I am really looking forward to this hearing. I am 
looking forward to your testimonies.
    This is something that we have really been focused on. I 
think the four questions that the chairman outlined are really 
important. I had a chance over the weekend to talk to each of 
the chiefs because I am concerned with the cuts that have been 
escalating so rapidly over the last year. It is hard to keep up 
with where we are, and I just wanted to know from them how 
far--how much further they can go, because I was expecting to 
hear some requests from our leadership. Fortunately, they 
didn't ask for any more cuts in the solution that they are 
working on to solve our problem right now.
    But thank you. I am glad to be with you and look forward to 
your testimony.
    Mr. Forbes. Thank you, Chairman McKeon.
    I would now like to turn to my fellow co-chair of the China 
Caucus and also the ranking member of this committee, Madeleine 
Bordallo from Guam--and she just got back from Guam--for any 
remarks she may have. Ms. Bordallo.

STATEMENT OF HON. MADELEINE Z. BORDALLO, A DELEGATE FROM GUAM, 
           RANKING MEMBER, SUBCOMMITTEE ON READINESS

    Ms. Bordallo. Thank you very much, Mr. Chairman.
    Today we continue our discussion on the overall readiness 
of our military forces, and we will hear from all of the Vice 
Chiefs of our military services. We thank them for their 
service to our Nation and for appearing before our subcommittee 
today.
    Over the past decade, we have asked our All-Volunteer Force 
to sustain continuous combat operations, and they have done so 
remarkably well. Our men and women who deploy in support of 
operations worldwide are some of the best trained and the best 
equipped service members that this Nation has ever seen.
    I think many of us on this subcommittee can remember back 
several years ago when service members frequently deployed 
without proper training or necessary equipment. Those were the 
days when readiness was at its lowest state, but this committee 
took appropriate steps to correct that problem, and now the 
readiness rates for our deploying units are consistently high.
    Some today are inclined to believe that readiness continues 
to decline across the services, but to me that is a false 
assumption. Reset efforts and a decrease in operations tempo 
and incrementally improved the services' readiness to support 
not only ongoing contingency operations but also to prepare for 
future challenges. In fact, this year was the first year that 
the Army was able to conduct full-spectrum operations training 
since the beginning of the war in Iraq, because operational 
tempo has decreased and dwell time has increased. Given this 
positive development, I hope that our witnesses will address 
what we need to do to stay on that track.
    It should come as no surprise, however, that we have 
readiness challenges, especially among our non-deployed forces. 
For one, Congress has not made things easy by passing defense 
authorization bills at the 11th hour and providing months and 
months of continuing resolutions. But the greater issue causing 
readiness challenges is being engaged in two wars for more than 
a decade. As long as we remain engaged in ground combat in both 
Iraq and Afghanistan, our ability to respond to another event 
or contingency, should they arise, will be negatively affected.
    This fact concerns me greatly as the elected Representative 
of Guam, which sits in the strategically important region of 
the Western Pacific, where threats from North Korea and China 
remain a constant threat. Case in point: How would we have 
responded in Korea if the Cheonan incident had been followed by 
further provocations from North Korea?
    Finally, like our subcommittee chairman, I am concerned 
about possible further cuts to the defense budget. These cuts 
will place additional pressures on each service's budget at a 
time when combat operations continue to stress and stretch our 
forces. I hope that our witnesses today can discuss the 
potential impacts that further budget cuts would have on their 
ability to perform their missions and meet theater commanders' 
validated requirements, as well as their ability to posture for 
the future.
    The only way to restore readiness across the board is to 
decrease the demand for forces, but we should not make the 
mistake of not making necessary investments to better posture 
our forces to respond to emerging threats.
    Mr. Chairman, thank you. And again, I feel that this 
hearing is very, very important and continues this committee's 
long history of oversight of the readiness of our military. 
Having the right mix of manpower, a total force ready to be 
employed and engaged as an instrument of national security, is 
essential to preserving our way of life. And I look forward to 
the testimony from our witnesses this afternoon and their 
responses to our questions.
    And I thank you and yield back.
    Mr. Forbes. Thank you, Madeleine.
    As we discussed prior to the hearing, I would like to 
dispense with the 5-minute rule for this hearing and depart 
from regular order so that members may ask questions during the 
course of the discussion. I think this will provide a 
roundtable-type forum and will enhance the dialogue of these 
very important issues. We would like to proceed with standard 
order for members to address the witnesses; however, if any 
member has a question pertinent to the matter being discussed 
at the time, please seek acknowledgment and wait to be 
recognized by the chair.
    We plan to keep questioning to the standard 5 minutes; 
however, I don't want to curtail productive dialogue. So I 
believe we can do this and still ensure each member has the 
opportunity to get his or her questions asked. As we have 
explained to each of our witnesses, that helps us to have a 
better dialogue.
    I think you will find that the expertise of the members of 
this committee is quite vast, and we just want to get that 
where they have that ability to ask those questions and make 
sure that we are getting them answered, if we can.
    If we get bogged down, the chair will ask members to hold 
further discussion until the first round of questioning is 
complete. Do any members have any questions about how we 
propose to conduct the questioning?
    If not, I ask unanimous consent that for the purposes of 
this hearing we dispense with the 5-minute rule and proceed as 
described. Without objection, it is so ordered.
    Now, we look forward to our statements from our witnesses. 
Gentlemen, I know that you have submitted prepared remarks that 
we will be introducing for the record. We would love for each 
of you to take a few minutes and tell us whatever you would 
like to say. This is your opportunity to get before this 
committee the importance of the readiness issues that you see.
    General Chiarelli, since you happen to be sitting in that 
seat, I take it you are going to be the first one up on deck 
with your statement, and then we will proceed right on down the 
line from there. General.

STATEMENT OF GEN PETER W. CHIARELLI, USA, VICE CHIEF OF STAFF, 
                           U.S. ARMY

    General Chiarelli. Chairman McKeon, Chairman Forbes, 
Ranking Member Bordallo, distinguished members of the 
committee, I want to thank you for allowing me to appear in 
front of you today. As the chairman said, you have my written 
statement and I look forward to questions and answers after my 
opening comments.
    These are challenging times. We have been at war for almost 
a decade, both in Iraq and Afghanistan. I am very, very proud 
of the job our soldiers, their families, and our Department of 
the Army civilians have done during that almost decade of 
conflict. To all this is added a serious fiscal crisis that our 
country is going through.
    Looking ahead, I think there are three main things that 
we--from an Army standpoint, we must ensure. First is that we 
must maintain into the future a force that is capable and as 
ready as it is today. There is no going back. We must maintain 
the edge we have gained over 10 years of conflict. We must 
modernize that force so it is relevant for tomorrow, and the 
Army has a very, very good modernization plan. And we must 
design a force that is affordable, and that is my promise to 
you.
    Since World War II, we have been 100 percent correct in one 
thing, and that is a failure to forecast the fights of the 
future. We are in an era of persistent conflict, and I would 
argue if we get out of that conflict we will go into an era of 
persistent engagement in order to avert conflict. Whatever 
reductions are made carry risk, and with reductions we will not 
be able to do as much tomorrow as we are able to do today. 
Everything we do should be aimed at reducing that risk.
    And for the Army there are four points that I would like to 
make:
    The first is it is absolutely critical that the Army get 
itself to a baseline BOG:DWELL [Boots on the Ground:Dwell] of 1 
to 2. That means for the active component force, when deployed 
for 12 months, we must get them to a baseline of 24 months at 
home, going to an optimal BOG:DWELL 1 to 3. For the Reserve 
components it should be 1 year mobilized, 5 years at home, 
before we request them to go on a second mobilization. That is 
absolutely essential for the work that I have been doing in 
health promotion, risk reduction, and suicide prevention. That 
BOG:DWELL ratio is absolutely critical.
    As you well know, the Army has a requirement for 22,000 
soldiers that we call the temporary end strength account. 
Temporary end strength was created to allow us to get off of 
stop-loss and also to help us make up for the medically non-
deployable soldiers that we had in our units.
    In addition to that, we have been asked to give up 27,000 
soldiers in force structure in 2015 and 2016 based on some 
assumptions. We have done the analysis of that drawdown to 520, 
and our strong recommendation is that that be a gradual 
drawdown, a drawdown of both force structure and the TESI 
account, Temporary End Strength Increase, if required to do so. 
That is absolutely essential if we are going to take care of 
our soldiers and our families. And we would also argue that we 
need to maintain a portion of that Temporary End Strength 
Increase because of the fact we have over 13,000 soldiers in 
the disability evaluation system after 10 years of conflict.
    I promise you we will continue to do our part to find cost 
savings, eliminate redundancies, and improve business 
practices, and the capability portfolio review process that we 
have embarked upon and the network integration exercises that 
we are running at Fort Bliss are examples that I would be happy 
to expand on during questions and answers.
    The bottom line: While the current fiscal environment may 
require changes or reductions to force structure, we must act 
responsibly. We must ensure for the United States Army that 
whatever we have is a balanced force. We have a tendency to 
protect force structure because we are a people-oriented and -
focused force, not platform-oriented. But we have three dials 
we have to turn here. We have to make sure that we have the 
required dollars to train. We have to be able to equip our 
force and the proper force structure. All those dials must be 
moved at the same time so whatever force we have is a balanced 
force, able to do the missions the country asks it to do.
    I want to thank you for your continued and generous support 
and demonstrated commitment to what I think we all believe is 
the greatest Army in the world. I look forward to your 
questions.
    [The prepared statement of General Chiarelli can be found 
in the Appendix on page 39.]
    Mr. Forbes. Thank you, General. Admiral.

STATEMENT OF ADM JONATHAN W. GREENERT, USN, VICE CHIEF OF NAVAL 
                     OPERATIONS, U.S. NAVY

    Admiral Greenert. Chairman Forbes, Congresswoman Bordallo, 
and distinguished members of the Subcommittee on Readiness, 
thank you for the opportunity to participate in today's hearing 
alongside the Assistant Commandant and my fellow service 
chiefs.
    I am honored to represent the men and women in Active Duty, 
Reserve, and civilian who work each day to ensure that our Navy 
is ready to perform the full range of capabilities necessary to 
ensure the security of the Nation. On their behalf, I want to 
express my appreciation and our appreciation for the work of 
this committee in support of the sailors' service and the 
committee's work to ensure that their welfare, the sailors' 
welfare, and the welfare of their family is taken care of.
    I also want to say that we in the Navy are pleased and 
encouraged by the progress that Representative Giffords has 
made. As the CNO mentioned when he addressed the full committee 
in March, Representative Giffords is a Navy spouse and a member 
of our family, the Navy family, and has been a friend of the 
Navy and Marine Corps throughout her career. So our thoughts 
and prayers and wishes for her speedy recovery remain with her 
as she continues her journey to return, and we look forward to 
her return to this committee.
    Mr. Chairman, I would ask my written testimony be accepted 
for the record.
    Our Navy remains globally deployed. Fifty to 60 percent of 
our ships are underway on any given day; 27,000 Navy people are 
at sea or on the ground or engaged in directly supporting 
combat operations in Central Command. We have naval forces 
providing deterrence against North Korea; providing maritime 
security and executing global maritime partnership initiatives 
in Europe, South America, Africa, the Mideast and the Pacific; 
providing humanitarian assistance disaster relief, as we have 
in Haiti, Pakistan, and Japan over the last year.
    The Sixth Fleet is supporting NATO power projection 
operations in Libya, and our ballistic missile defense capable 
surface ships provide theater ballistic missile defense in 
Europe, the Middle East, and the Western Pacific. Also, the 
Navy ballistic missile submarines provide the most survivable 
element of our strategic deterrent triad. Now, all these 
activities are directly aligned with our maritime strategy and 
our six core capabilities that that strategy articulates.
    Our sailors, your sailors, are doing a superb job in a 
myriad of tasks, and the combatant commander positive feedback 
that we get testifies to their performance. Our sailors 
represent the foundation of our readiness.
    Overall, Navy's readiness is acceptable, but as you have 
seen in the quarterly readiness report we provided to the 
Congress, there are indicators of a declining trend. I view 
these indicators and the trend with concern. It is clear to me 
that the Navy is under stress. This is reflected in a host of 
indicators and resource areas.
    Like our partner services, we have been engaged in combat 
operations for 10 years while continuing to support other 
theater and area of responsibility requirements. For example, 
to best meet combatant commander needs for deployed Navy forces 
and to simultaneously respond to emerging requirements, we have 
increased deployments and we have increased deployed time. This 
has resulted in reduced training time, a narrowing of pre-
deployment training for certain units for tailored and mission-
specific tasks. We had to reschedule or descope depot 
maintenance periods, and we have had limited opportunities for 
unit level training and maintenance, and it has dramatically 
compelled us to more routinely exceed personnel op tempo 
[Operations Tempo] guidelines.
    Your Navy has been a rotational force for decades and 
consequently we are used to what we call ``resetting in 
stride'' between deployments. This principle has kept core Navy 
readiness measures above minimum requirements, but the stress 
on the force is real and it has been relentless.
    I can't tell you for sure, Mr. Chairman, if we are at an 
inflection point or a tipping point, but I don't see how we can 
sustain this pace of operations indefinitely and meet the 
readiness standards. If we try to do so, I think it will 
consume the expected service life of our force structure 
earlier than designed and planned and will face a cascading 
increase in the cost to achieve the expected service life of 
those ships. And reaching that expected service life is a 
foundational element of our future ship inventory and, 
accordingly, our shipbuilding plan.
    Therefore, it is important for us to reestablish, in my 
view, a sustainable level of operations consistent with force 
structure and supportable by our fleet response plan.
    Our responsibility is to provide a Navy ready today to do 
today's mission. It is also our responsibility to be ready to 
meet tomorrow's challenges. So, accordingly, the CNO strives to 
carefully balance modernization and procurement with current 
readiness requirements in developing our budget submission.
    For example, we have taken steps in the 2012 budget request 
to reduce our reliance on overseas contingency operation 
funding, particularly in the operating accounts. However, we 
remain dependent upon some level of OCO [Overseas Contingency 
Operations] to fully meet today's baseline readiness 
requirements. Our readiness would be dramatically impacted if 
OCO's funding is further reduced or terminated without a 
corresponding reduction in those operating requirements.
    So, Mr. Chairman, Congresswoman Bordallo, and members of 
the committee, you can be proud of the work of the men and 
women serving your Navy. They get it done on behalf of the 
combatant commanders around the world, and I appreciate the 
opportunity to be with you today, and I look forward to the 
discussion. Thank you.
    [The prepared statement of Admiral Greenert can be found in 
the Appendix on page 54.]
    Mr. Forbes. Thank you, Admiral. General Dunford.

   STATEMENT OF GEN. JOSEPH F. DUNFORD, JR., USMC, ASSISTANT 
                 COMMANDANT, U.S. MARINE CORPS

    General Dunford. Chairman McKeon, Chairman Forbes, 
Congresswoman Bordallo, distinguished members of the committee, 
thanks for the opportunity to join you here today. It is an 
honor to represent your Marines.
    I would like to begin by offering a few key observations 
regarding our current and our future readiness. Today, of the 
202,000 marines on Active Duty and the 39,000 in the selected 
Marine Corps Reserve, 30,000 are forward deployed; 20,000 are 
actually in Afghanistan. Due to the support of the Congress, 
those forward-deployed forces are well-manned, trained, and 
equipped in keeping with our Commandant's number one priority, 
but our forward-deployed units have personnel and equipment 
requirements that exceed standard allowances. The additional 
equipment is due to the nature of the fight and the very 
distributed of operations in Afghanistan. The additional 
personnel are required to support staffs and trainers for 
Afghan security forces.
    We meet those additional requirements by pulling equipment 
and personnel from home station. As a result, units at home 
station continue to experience significant personnel and 
equipment shortfalls. In fact, approximately two-thirds of our 
units at home station are in a degraded readiness state.
    Home station readiness is a particular concern for the 
Nation's expeditionary force and readiness. The forces at home 
station represent our capability to respond to unexpected 
crises and contingencies. Last year, units at home station 
responded to several unplanned requirements, including those in 
Afghanistan, Libya, and Japan. Marines were also called to 
reinforce embassies in Egypt, Bahrain, Guinea, and Kyrgyzstan. 
In these cases, Marines had days, in some cases hours, to 
respond.
    We are reminded that crisis response is come as you are. If 
the Marine Corps is asked to support another major contingency 
at this time, we would respond, but home station shortfalls 
would affect our ability to meet the timelines established by 
the combatant commanders. Also, we are not currently meeting 
the combatant commanders' demand for forward-deployed marines.
    Even as we work to meet current requirements, we are 
looking ahead. We have conducted an assessment of the future 
security environment and of force structure review. Based on 
our analysis, we plan for a force with the right capabilities 
and capacities to provide the Nation with an expeditionary 
force and readiness that meets the vision of the 82nd Congress.
    Our intent is to reset our forces coming out of Afghanistan 
and reconstitute an Active Force of 186,800 marines with 39,500 
in the selected Marine Corps Reserve. That force will be manned 
and equipped as a force in readiness and will be designed to be 
forward deployed and engaged, and it will be prepared for a 
wide range of crises and contingencies.
    With your continued support, tomorrow's Marine Corps will 
remain a force that is ready to respond to today's crisis, with 
today's forces, today.
    I look forward to your questions.
    [The prepared statement of General Dunford can be found in 
the Appendix on page 67.]
    Mr. Forbes. Thank you, General. General Breedlove.

  STATEMENT OF GEN. PHILIP M. BREEDLOVE, USAF, VICE CHIEF OF 
                     STAFF, U.S. AIR FORCE

    General Breedlove. Chairman McKeon, Chairman Forbes, 
Ranking member Bordallo, and distinguished members of the 
committee, it is my pleasure to be here today representing the 
more than 690,000 Active Duty, Guard, Reserve, and civilian 
airmen. Thank you for providing me the opportunity to update 
you on the readiness of your United States Air Force. My intent 
today is to address a few Air Force readiness trends and 
highlight some of the challenges we are facing.
    I am pleased to report that America's Air Force continues 
to provide the Nation with unmatched global vigilance, reach, 
and power as a part of this joint and coalition team. The Air 
Force remains a mission-focused and prepared force, an 
increasingly difficult task given 20 years of constant deployed 
combat operations dating all the way back to Operation Desert 
Storm.
    Notably since 2003, we have seen a slow but steady decline 
in reported unit readiness indicators. This makes our ability 
to be ready for the full spectrum of operations at an 
acceptable risk quite challenging, especially for the combat 
Air Forces and for our limited supply of high-demand units.
    Our enduring commitment to readiness in the joint fight is 
evidenced by the 40,000 American airmen deployed to 285 
locations around the globe. Of this group, nearly 28,000 are on 
a continually rotating basis to directly contribute to 
operations in U.S. CENTCOM [United States Central Command], 
including 10,000 airmen in Afghanistan providing close air 
support to U.S. and coalition ground forces, airlift, air 
refueling, personnel rescue, air medical evacuation, and 
training to develop our partner Air Force there.
    An additional 57,000 total force airmen, or 11 percent of 
our force, are forward stationed overseas, providing 
capabilities in direct support of our COCOMs [United States 
Combatant Commands]. And from their home stations in the United 
States, 220,000 total force airmen, 43 percent of the Air 
Force, provide daily support to worldwide operations, standing 
nuclear alert, commanding and controlling our satellites, 
analyzing intelligence surveillance and reconnaissance data for 
the forward troops, and much, much more.
    This high operations tempo continues to stress 16 of our 
enlisted specialties and 6 of our officer specialities, well 
below the 1 to 1 acceptable minimum.
    Aircraft readiness: Through the dedicated work of our 
airmen, the Air Force's aircraft inventory remains ready 
despite extensive use in contingency operations and increases 
in fleet average age. The mobility Air Forces are in good 
shape. Our modernization and recapitalization efforts, most 
notably the KC-46, remain on track. The combat Air Force's 
readiness is adequate despite the challenge of rapidly 
accumulating hours and the fleet faster aging than we 
originally planned, as well as delayed modernization and 
recapitalization efforts.
    To keep our legacy platforms viable well into the future, 
the Air Force intends to use funds saved through our efficiency 
efforts to subsidize modernization. A good example is our plan 
to retire six B-1 bombers to fund B-1 fleet upgrades.
    In addition to air power, Air Force continues to reliably 
provide the Nation with required space and cyber capability, 
precision navigation and timing through GPS [Global Positioning 
System] and secure satellite COM [communications], missile 
warning and network defense against a barrage of cyberspace 
attacks. We have achieved a record 80 consecutive, successful, 
national security space launches since 1999, and our space 
readiness meets the requirement.
    Likewise, as a critical component of our Nation's strategic 
deterrence, the Air Force has maintained our 450 ICBMs 
[Intercontinental Ballistic Missile] on continuous alert at 
greater than 99 percent readiness rate. This is a mission we 
cannot fail in.
    Mr. Chairman, committee members, the Air Force remains 
steadfastly committed to providing global vigilance, reach, and 
power for America and the joint team. Despite fiscal challenges 
and high ops tempo, Air Force personnel, weapons systems, and 
organizations prepare and are prepared for today's fight. Thank 
you for your continued support of your United States Air Force, 
for our airmen and for their families.
    I look forward to your questions, sir.
    [The prepared statement of General Breedlove can be found 
in the Appendix on page 80.]
    Mr. Forbes. Thank you, General. And to each of our 
panelists we thank you for being here. As Chairman McKeon 
indicated at the beginning, we view each and every one of you 
as true American heroes. We don't say that lightly; we believe 
that. And equally important, we believe that the men and women 
who serve under you are true heroes for this Nation, defending 
freedom.
    As I look out upon the world that we face, my biggest 
concern is not an enemy masthead that I see coming over the 
horizon. It is not a new missile that we don't know about, and 
it is not even a group of planes that could be flying over 
there. One of the biggest fears that I have is these enormous 
budget cuts that we see coming down the pike. We have heard 
tunes of anywhere from $400 billion to $1 trillion.
    As I look at it, the questions we need to ask for national 
security are pretty straightforward. They are commonsense 
questions.
    The first question that we have to ask is this: What is the 
true risk? What are the threats that America faces, both today 
and in the near and far future? In doing that, we have a number 
of different tools. We use the Quadrennial Defense Review that 
each of you are very familiar with, the National Security 
Strategy. Many of these are unclassified. We know that you have 
a number of documents that you use to bring together to assess 
that risk and to make sure we know what it is. But at some 
point in time we have to ask the question: What is the risk 
that America is facing?
    The second question that we have to ask is: What resources 
do our combatant commanders need to fulfill the missions 
necessary to defend America from those risks?
    The third question is: How much are we paying for those 
resources and how can we do it as efficiently as possible?
    And then the fourth question is: How much can we afford, 
and what is the risk to America if we don't provide those 
resources?
    I can tell you that I believe with every ounce of strength 
that I have that the debate that we have had in the United 
States over the last several months has been around only one 
portion of one of those questions. And it is: What do we want 
to spend and how much can we afford? But we are not looking at 
the risks that we are assuming by not expending those moneys.
    I know the tremendous pressure each of you are under as you 
come here today, and I also know this: If we don't ask those 
questions, we may all be presiding over the dismantling of the 
greatest military the world has ever known. That will not be 
our legacy.
    The chairman has given me this gavel, and he has done it 
because he knows that I will ask those tough questions, and we 
will do that today. And he also knows that we are prepared if 
we need to, and you think we need to, we are all set up, we 
will gavel this session and we will go into a classified 
setting if that is necessary. But we won't leave the men and 
women who serve under you without the resources they need to do 
the missions necessary to defend this country.
    General Dunford, your marines have been at the front of 
almost everything we have done over the last several decades. 
They have risked their arms, their legs, their quality of life, 
their life itself, in doing that fight. So I think we should 
come to you first.
    And the question that I want to ask you which is at the 
heart of it, if we believe that readiness is the ability of the 
military services to provide the combatant commanders with the 
resources necessary to meet the operational requirements 
necessary to defend us from the threats we face, the question I 
would ask you is this: In your best professional military 
judgment, given the tremendous demands on your service, are you 
currently able to provide the combatant commanders with the 
resources--all the resources they need to meet their 
operational requirement?
    General Dunford. Chairman Forbes, thank you for that 
question. First, as I mentioned in the opening statement, I am 
absolutely confident that in the case of the United States 
Central Command, we are providing that combatant commander with 
all the Marine forces that he needs. And those forces, as is 
the Commandant's number one priority, those forces are the best 
trained, best equipped, and best manned units that we can 
provide.
    The requirement to meet the Central Command demand has 
caused us to accept risks in other areas of operations. So 
currently we are not able to meet all the forward presence 
requirements of the other combatant commanders in the Pacific 
Command, in the Southern Command, European Command, and Africa 
Command.
    Also, in the case of another major contingency operation, 
the United States Marine Corps would not right now be able to 
meet the timelines of the combatant commanders in response to 
another major contingency operation, should it occur 
simultaneously with current operations in Afghanistan.
    Mr. Forbes. General, you have heard the same statements 
that we have heard about potential cuts from different sources, 
$400 billion to a trillion dollars. Assuming that we divided 
this equally and the Marine Corps had to take as much as $200 
billion of cuts over the next 10 years, could you absorb those, 
and what would the impact be on the readiness state of the 
Marine Corps if that were to come your way?
    General Dunford. Chairman, we have taken a look at the 
figure of $400 billion, and we have taken a look at what our 
fair share would be it if would come down to the Department of 
the Navy and we would take a pro-share cut of those reductions 
inside the Department of the Navy.
    I think within $400 billion, we would have some challenges 
in taking those cuts. I think if they were to exceed $400 
billion we would start to have to make some fundamental changes 
in the capability of the Marine Corps.
    Mr. Forbes. Would your reductions come in the nature of 
personnel and force structure?
    General Dunford. Chairman, as a result of the way that we 
are organized, 60 percent of our total obligation authority 
actually goes to people. So if we were forced to take cuts, 
they would absolutely come in the form of capacity.
    Mr. Forbes. General Breedlove, I know you have talked about 
the aging of your fleet, and so my first question to you is the 
same one to General Dunford. Given the demands on the service 
right now and the Air Force and your best professional military 
judgment, are you currently able to meet all the demands from 
our combatant commanders with the resources they need to meet 
their operational requirements?
    General Breedlove. Mr. Chairman, my answer starts very 
similar to General Dunford's. In the case of CENTCOM, I believe 
we can meet all of those requirements. I will tell you that 
some of our low-density, high-demand requirements--personnel 
recovery, ISR [Intelligence, Surveillance, and Reconnaissance], 
and a few--are right at the ragged edge, and as we continue to 
be challenged by new tasks around North Africa and other 
places, we are right at the limit of supporting CENTCOM in 
those low-density, high-demand assets.
    Similarly, once you get outside of CENTCOM, we would have 
some risk, and those risks fall in these familiar areas: 
personnel recovery, ISR, some of our intel assets' limited 
demand, are being pretty much consumed by the CENTCOM fight. 
And therefore, we would accept risk as we would approach other 
COCOM requirements around the world that we have.
    Mr. Forbes. And some of those would include PACOM [United 
States Pacific Command], for example?
    General Breedlove. Yes, sir, exactly.
    Mr. Forbes. In addition to that, General Dunford addressed 
the impact that cuts would make on the Air Force. I am looking 
right now at the average age of some of your fleet, and it 
could be a few years either way, but as I look at it, your 
strategic bombers are about 34 years old; tanker aircraft, 47; 
your airlift aircraft, 19. What impact would those cuts have on 
the readiness for the Air Force?
    General Breedlove. We have also looked at the conversation 
which is happening about our fair share of 400, and it would 
cause us quite some concern in the recapitalization of just 
what you talk about, Mr. Chairman. We do have an attack air 
fleet and a bomber fleet that is in bad need of 
recapitalization, and our plans throughout this period would be 
challenged by those cuts.
    Similarly to General Dunford, what we have looked at is 
that in a $400 billion cut, our capacity would have to come 
down. We have determined that we will not go hollow. When I 
came into the flying business in the seventies, I looked at 
what hollow was on Air Force bases. As I walked down the line 
and saw holes in aircraft where there were no engines and we 
had maintained a certain amount of infrastructure and iron, but 
it was unflyable. And we can't afford to go there with the 
requirements of our COCOMs today.
    So a $400 billion cut would force us to constrict our force 
in order to maintain a ready and fit force to fight, and we 
come to almost the same conclusion that General Dunford did. 
Beyond $400 billion, we would have to go into a fundamental 
restructure of what it is our Nation expects from our Air 
Force.
    Mr. Forbes. General, you and I have also had some 
discussions regarding the importance of technology and advanced 
technology for the Air Force. We see as one of the forces 
around the world, obviously, the Chinese and what they are 
doing with a huge modernization. In your best professional 
military judgment from assessing what the Chinese have been 
doing in the last several years, when they make commitments or 
promises that they are going to have various numbers of 
aircraft online within certain years, do they deliver on those 
promises?
    General Breedlove. They do, sir, and that is probably the 
most scary thing about what they are doing. Clearly, we are 
some number of decades ahead of the Chinese in stealth and in 
the capability to employ stealth and to do these high 
technically pieces of work in the military. You don't catch up 
that 3 or 4 decades overnight. Normally, it would take you 3 or 
4 decades to do it, but quite frankly, the way that they are 
intruding into the nets of our manufacturers and our 
government, they are catching up in an increased rate because 
of what they learn in those cyber intrusions.
    So, yes, sir, it does scare me. When they say they are 
going to build 300 J-21s in the next 5 years, they will build 
300 J-21s in the next 5 years. They will put the money to 
whatever they decide to do, and that scares me because of the 
determination and the fact that they will deliver.
    Mr. Forbes. Thank you, General.
    General Chiarelli, again thank you for being here. No 
surprise question to you. You have heard the questions that I 
have asked to General Dunford and also to General Breedlove. I 
would like to ask you the same thing.
    In your best professional military judgment, given the 
demands of the Army currently, are you currently able to 
provide the combatant commanders--all of our combatant 
commanders--with the resources they need to meet the 
operational requirements of the missions that they currently 
face?
    General Chiarelli. Well, Mr. Chairman, thank you for that 
question, and I would add that we have been shoulder-to-
shoulder with our Marine brethren throughout both conflicts in 
Iraq and Afghanistan from the beginning.
    Mr. Forbes. And we know you have.
    General Chiarelli. And I would tell you, yes, in CENTCOM we 
are, but not without a cost. I think you know that our aviation 
assets are on the 1 to 1 BOG:DWELL today. I recently visited an 
aviation brigade in Fort Hood, Texas, that had just returned 
from the theater, and 12 months to the day after they returned 
they were back for another 12-month deployment, and currently 
at 1 to 1, and a majority of our forces we have over there are 
below 1 to 2. That is 12 months at home--12 months deployed, 24 
months at home.
    No, we cannot meet all the other COCOM commanders' 
validated demands. Those are prioritized through the global 
force management process. We work hard to meet them. We are not 
able to meet them all, and we help them manage that risk.
    We are looking very, very hard at a $400 billion cut. We 
don't totally understand the total impact that is going to have 
on the force, but when you double that to $800 million or 
more--or $800 billion or more, that is--you are reaching an 
area there that I think would definitely--we would have to look 
very, very hard at our strategy, what we can and cannot do.
    Mr. Forbes. General, if you can't meet the combatant 
commanders' need for the resources for their operational 
requirements today, and you were to have these cuts coming 
down, how are you right now in terms of your equipment needs, 
and would these cuts come out of equipment or would they come 
out of personnel?
    General Chiarelli. We are absolutely focused on whatever 
force we have is a balanced force. And there is three big dials 
that we have to turn. We have a tendency to hold on to force 
structure longer than we should because, as I indicated in my 
opening comments, we are people-focused. We are not platform-
focused, but we have made a commitment, both the Secretary of 
the Army and the Chief of Staff of the Army, that whatever 
force we have, if cut, whatever force is left will be a 
balanced force. We will have the necessary funds to train that 
force to do the missions we ask it to do. We will equip and we 
will ensure that force is a modernized force going into the 
future, and we will have the force structure that allows us to 
man that equipment, but we will not in any way favor one 
account or the other.
    Mr. Forbes. Would it be fair to say that if you have those 
budget cuts you would have to further reduce the resources that 
you could supply to our combatant commanders?
    General Chiarelli. That is fair to say.
    Mr. Forbes. Admiral, again, we thank you for your presence 
here, look forward to your service as CNO. You know that there 
have been some somewhat substantiated rumors floating around 
Congress that I mentioned to you the other day regarding our 
aircraft carriers, and particularly the possibility of delaying 
the construction of current aircraft carrier underway from 5 
years to 7 years, and also doing away perhaps altogether with 
the next carrier that is on deck.
    In your best professional military judgment, if that 
proposal was presented to this committee, should we embrace it 
and support it, or should we fight against it?
    Admiral Greenert. Well, first, Mr. Chairman, I would have 
to say that in the deliberations of our fiscal year 2013 budget 
there are a whole host of items on the table, but the best--we 
have found that the best center for aircraft procurement and 
construction, and that is, if you will, interval between 
construction, I think we are talking about, is 5 years. And 
that is our program of record right now for CVN-79. That is the 
carrier in question.
    We find that when you go beyond that you have an overhead 
cost, you have a labor cost increase, and you lose the skill, 
the proficiency of the workers. So that is kind of about in the 
sweet spot. So we would prefer not to do that. That is not the 
best way to build an aircraft carrier if you have that option.
    The CVN-79 is the intended relief for the Nimitz, which as 
retired, if I am not mistaken, in 2025. So anyway, what I tell 
you, any rumor to that extent is definitely predecisional. 
There are a lot of things under deliberations right now, sir.
    Mr. Forbes. Admiral, we recognize that. Let me ask you 
this: In your best professional military judgment, given all 
the demands on the Navy now, are you currently able to provide 
the combatant commanders with the resources they need to meet 
their operational requirements?
    Admiral Greenert. Thank you, Mr. Chairman. Our validated 
signal, if you will, for providing the combatant commanders 
what they need is the global force management allocation plan. 
That is the result of deliberations in the joint staff with the 
combatant commanders, with the services, and the Secretary of 
Defense's staff. The combatant commanders unconstrained, if you 
will, what they believe they need is the input to this process. 
That is reviewed for validity, if you will, for policy, for 
strategy. The outcome of that is the global force----
    Mr. Forbes. And Admiral, I want to make sure I phrased my 
question to you correctly, so I am sorry to interrupt you, but 
I didn't say what they wanted; I said what they needed.
    Admiral Greenert. What they--my signal to me, what they 
need, is the global force management allocation plan. We meet 
that plan right now, with the caveats I gave you in my oral 
statement. We are on the edge right now. There are some aspects 
of my fleet response plan, my covenant to provide rotational 
forces forward that I find that I am concerned about some of 
those trends, and I described those to you.
    So to answer your question, yes, we meet those. An 
unconstrained combatant commanders' demand, I would need, doing 
some analysis, about some 400 ships. I have 285 ships today.
    Mr. Forbes. Admiral, last question I am going to ask this. 
When Admiral Burke was here little over a week ago he said that 
the COCOM demand was for about 16 or 18 subs at any one time. 
He said we could only deliver about 10 subs at any one time, 
not because they didn't need them, but because that is all we 
could afford to deliver. Big difference.
    I am looking at the shipbuilding plan that has been 
submitted by the Navy, and looking out. We had Admiral Willard 
testify before one of our subcommittees a little over a year 
ago, that the Chinese now for the first time in their lifetime 
had more ships in their Navy than we did in ours. And I know we 
can argue about capability, but at some point in time numbers 
become capability.
    The second thing we looked at is the Navy has said we 
needed a floor of 313 ships. Then they came back and somewhat 
tweaked that and said 328. You know, and we have chatted about 
this before, in the QDR [Quadrennial Defense Review] 
independent panel that did an analysis on that number, they 
came up and felt we needed 346 ships. Regardless of whether it 
is 313, 328, or 346, in CBO's [Congressional Budget Office] 
review of the shipbuilding plan that has been brought forward, 
they asked the question how the numbers work out, because based 
on their numbers and the cost of the ships they feel instead of 
going to 313, we could be going down to 270, 250, even 170 
depending upon the cost of the ships.
    Here is the question I have for you. This year this 
committee put $14.9 billion in shipbuilding. The average over 
the last 3 decades, as you know, has been $15 billion that 
Congress has put in for shipbuilding. We know we can't supply 
enough subs right now for our combatant commanders' request. We 
know, as you mentioned and also as CRS [Congressional Research 
Service] has come out and told us, if we were to delay a 
carrier, that carrier cost for either not building one or 
delaying them would increase not just our carrier costs, but 
the cost of our subs and the cost of doing the maintenance on 
our ships. We also know that last year the Navy had a $367 
million shortfall in their ship repair accounts.
    Admiral Burke, Admiral McCoy testified about a week or so 
ago, that when we don't do the maintenance on the ships, we 
reduce the lifecycle for those ships and we increase the cost 
of the maintenance. The number differentiation on that 
shipbuilding plan is this: If we had the $15 billion, we can't 
reach even a 313-ship goal.
    You heard General Breedlove say when the Chinese say they 
are going to do something, they normally do it. And they are 
talking about building a lot of ships over the next few years. 
My concern to you is, if we are short already--and I think the 
numbers are between that we need 17- to $19 billion, so we 
could be short $2\1/2\ billion to $19 billion. What in the 
world would the Navy do on its shipbuilding plan if you had to 
take further reductions coming down from some of these budget 
hits?
    Admiral Greenert. Well, Mr. Chairman, you have really 
eloquently described the conundrum.
    Mr. Forbes. I tried.
    Admiral Greenert. The balance--and it is really all about 
that balance.
    If we had a reduction of a kind that was passed around 
here, $400 billion, $886 billion, without a comprehensive 
strategic review, a fundamental look at what we are asking our 
forces to do, without a change in activity as I described, we 
won't be able to meet the global force management plan today. I 
am pretty sure of that. It will exacerbate our readiness trends 
which you are familiar with, and if we have to go to force 
structure, reduction of force structure, which you mentioned, I 
am concerned about the industrial base. You are familiar with 
it, and you know that it is a fragile item.
    Mr. Forbes. And Admiral, of that comprehensive strategic 
review, the one part of that we cannot change is what the 
threats are; would that be fair to say? We can change our 
analysis and the missions we are going to do to fight this, but 
we can can't change the threats as such.
    Admiral Greenert. I would only add a caveat. You can't 
change a threat. You can determine what you view to be in your 
vital interests, your national interests. Threats are certainly 
a part of that equation.
    Mr. Forbes. Good. Thank you. Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman. I have a 
couple of questions for each of the witnesses, and I guess in 
the interest of time, if you can be brief in your response, I 
know we have votes later on.
    How long will it take to return your service's forces to 
their pre-2001 readiness posture? How much will it cost to 
achieve that level of readiness? And will we ever again attain 
that level of readiness? And is that even the correct standard 
of measurement? I guess we will start with General Chiarelli.
    General Chiarelli. Ma'am, we never want to go back to 2001.
    Ms. Bordallo. Well, I am talking about prewar.
    General Chiarelli. Even prewar. Our level of readiness 
today is much better than it was in the prewar period, much 
better than it was in the prewar period, but that does not--you 
still have to understand we have got a force that has been 
fighting for 10 years, and from a strained standpoint is a 
force that has been strained over time. We have equipment that 
has to be reset and when that equipment returns from theater, 
we will need the funds to reset that equipment. But we have 
never had a force that is more combat-tested than the United 
States Army of today. Ten years of fighting with an All-
Volunteer Force, soldiers who have been on three, four, five, 
and six deployments, gives you a level of readiness when it 
comes to their ability as soldiers that I don't believe has 
ever been as high as it is today.
    Ms. Bordallo. So even cost, the whole package, is much 
better today?
    General Chiarelli. Level of readiness is greater. We never 
want to go back.
    Ms. Bordallo. All right.
    General Chiarelli. But that doesn't mean there aren't 
things we need to fix.
    Ms. Bordallo. Admiral.
    Admiral Greenert. Thank you, ma'am. I think I need to 
characterize our force in 9/11 first, and then I will answer 
your question. We had 316 ships on 9/11. We have 285 today. On 
9/11 we had 385 [385,000] sailors in the Navy. Today we have 
325 [325,000]. So we are a different Navy. We are a smaller 
Navy.
    Our readiness posture today, the foundation of it, is the 
process, the fleet response plan. We owe and have a covenant 
with the combatant commanders to meet a global force management 
plan. To meet that, I think our unfunded requirement probably 
best describes where we want to be in maintenance, and that is 
$367 million in ship depot maintenance and $317 million in 
aviation spares.
    That would give you my best estimate of where I would like 
to be to meet a readiness standard cost-wise, to quantify it 
for you, ma'am.
    Ms. Bordallo. So you take a different view, then. In other 
words, you are a smaller Navy today than you were back then.
    Admiral Greenert. Yes, ma'am.
    Ms. Bordallo. And our next one is General Dunford.
    General Dunford. Thank you, Congresswoman Bordallo.
    Let me answer the question about the pre-9/11 benchmark 
first. When we looked at the future and we developed what we 
believe to be the Marine Corps that the Nation will need 
tomorrow, we didn't look at 9/11, we looked at the threats in 
the future. So we don't benchmark our readiness for tomorrow 
based on where we were yesterday.
    I agree with General Chiarelli with regard to the quality 
of the force. We have never had a force that is more capable 
than the one that we have today.
    Having said that, we have seen significant degradation, 
particularly in the category of equipment readiness, over the 
past 10 years. So when we look at the cost of resetting--that 
is, replacing or fixing the equipment that will come out of 
Afghanistan--as well as the cost of modernizing, our initial 
figures are on the order of $12 billion. That $12 billion, 
again, is to reset the equipment that will come out of 
Afghanistan as well as modernize to the degree that we have 
done the analysis right now.
    I would qualify that figure somewhat by saying that there 
are many lessons learned from Afghanistan and from Iraq right 
now that we haven't yet institutionalized. We are in the 
process right now of examining our equipment standards, how 
much equipment a unit rates. And I suspect that we will find 
that particularly in the case of communications gear and, in 
some cases, mobility capability that we will need additional 
equipment.
    But $12 billion is about the number right now that we have, 
and that is a combination of reset and reconstitution.
    Ms. Bordallo. Thank you, General.
    General Breedlove.
    General Breedlove. Thank you, ma'am.
    I will echo just a couple of comments of my Navy colleague. 
The Air Force is smaller now than it was in 2001 by some 250 
fighters and some other forces. So I don't think that it is 
likely that we will return to the size and the capacity that we 
once had in the fiscal environment we face. We will be a 
smaller force.
    I will also echo the remarks of my fellow vices, in that, 
while we were ready in 2001, we are a combat-tested and 
incredibly ready force now as we deploy. That sometimes comes 
at the expense of the non-deployed forces, as we make sure that 
those forces that are forward get the supplies and the 
abilities that they have.
    Our small capabilities, limited-number but high-demand 
capabilities, have been rode hard for the last 10 years. To get 
back to the material readiness that the vice commandant speaks 
about is a tough road to hoe in what we see to be the next 
fiscal environment.
    Ms. Bordallo. Uh-huh. So in a few of your cases, then, you 
are a smaller organization, but you are far more ready and 
qualified today. Is that the message?
    General Breedlove. When it comes to the capability----
    Ms. Bordallo. That is correct.
    General Breedlove [continuing]. Of our airmen as they fight 
on the ground and in the air, we are a battle-tested and proven 
force and ready there. It is our material readiness that is 
strained, in our aircraft and our high-demand, limited-density 
assets.
    Ms. Bordallo. Well, I thank you very----
    General Chiarelli. May I add something, ma'am? I am sorry.
    Ms. Bordallo. Yes.
    General Chiarelli. I was wondering if I could add 
something.
    We are a larger force today, but we didn't get large quick 
enough. I don't know if everyone remembers, but there was a 
period in time, because we could not grow the force as fast as 
demand was requiring, that we had to go to 15-month 
deployments. When I say we never want to go back to that again, 
we never want to go back to that again. What that did to 
soldiers and to families was nothing any of us want to see 
again.
    So when I say we don't want to go back, it is much easier 
to take down this force, and quicker, than it would be to build 
it up, should something that we don't foresee happen in the 
future.
    Ms. Bordallo. Thank you, General.
    I have another question. This will be my last. I would like 
to ask about training opportunities in the Pacific. Now, I know 
that some of you are more apt to answer that than the others. 
But it appears that training opportunities in the Pacific are 
trending in the wrong direction, particularly in Okinawa.
    What steps is the Department of Defense and each of the 
services taking to address broader training issues in the 
Pacific? And to what extent is each of the services 
participating in environmental impact statements funded by the 
Pacific Command but led by the Marines to look at Pacific 
training? And how do we get training right in the Pacific?
    I guess I will start with you, General.
    General Dunford. Congresswoman Bordallo, as you know, we 
are actively involved in implementation of the DPRI [Defense 
Policy Review Initiative] agreement. And as you pointed out, 
one of the biggest challenges we have as we look at the proper 
laydown of Marine forces after we come out of the war is 
ensuring that they have training opportunities for the entire 
Marine Air-Ground Task Force. Those opportunities right now are 
limited and don't fully meet all of our requirements.
    As we become more desegregated in conjunction with the 
DPRI, those training requirements will actually increase. We 
will need to find other opportunities to increase training 
opportunities.
    We have identified our training requirements; we have done 
a detailed analysis. We provided that analysis to the U.S. 
Pacific Command. We provided that analysis to the Office of the 
Secretary of Defense. And we are actively involved both in the 
environmental impact studies as well as the negotiations that 
OSD [Office of the Secretary of Defense] is leading with a 
number of countries in the Pacific to ensure that our training 
requirements in the future are met.
    Ms. Bordallo. Thank you. Thank you very much, General.
    General Breedlove.
    General Breedlove. Yes, ma'am. As you well know, with your 
familiarity of the Pacific, as Korea and Japan become much more 
dense with people and their use of airspace becomes much more 
constricted for our aircraft, and as our aircraft get more and 
more sophisticated and need more room in which to practice, we 
are severely challenged in Japan and in Korea to meet our 
training needs.
    And so we are forced now to seek our training actually in 
the continental United States, in Alaska, or maybe back at 
Nellis. So we have to move the forces from the forward area 
back to the rear area to get them training, which, of course, 
is expensive and takes time out of their training. So we, too, 
are looking for opportunities to increase our training 
capability.
    As far as the issue of the Marines, we are working and 
partnering with our Marine brothers and sisters to best meet 
the demands should we have to do joint basing and look at those 
opportunities around.
    Ms. Bordallo. Thank you, General.
    Admiral Greenert, you were once stationed in Guam, so I am 
sure you are quite familiar with the region.
    Admiral Greenert. Yes, ma'am. Thank you for the question.
    First of all, we are quite pleased with the support we get 
in Guam for training. We have been training there for years. 
Our explosive ordnance disposal, our SEALs [Sea, Air, and 
Land], our maritime expeditionary support forces, our RIVRONs 
[Riverine Squadrons] all train there. And so I would say, for 
expeditionary warfare, it is hard to find a better site than 
the islands in and around Guam and the government of Guam's 
support.
    Other training opportunities we have to continue to 
develop: missile defense. And, in this case, it is the Pacific 
Missile Range in Kauai. We have to continue to upgrade that and 
make sure that it stays technologically in synchronization with 
the development of missile defense technologies that we have to 
test out.
    Acoustic training. Antisubmarine warfare is a skill set 
unique to us, and we have to dominate the undersea domain. And 
so, finding those ranges, whether it be ad hoc where we use our 
own, if you will, organic equipment or, if you will, 
instrumented range, those are our challenges, ma'am.
    Ms. Bordallo. Thank you, Admiral.
    And General Chiarelli.
    General Chiarelli. Well, ma'am, as we all know, a majority 
of our training is in Korea and Hawaii. We were able to train 
at both locations. I recently toured Hawaii and the training 
facilities there. We work both environmental and cultural 
issues there. But have absolutely outstanding training 
facilities for the 25th and other visiting units.
    In addition to that, we have elements in Kwajalein that are 
able to do excellent missile defense training in that area.
    Ms. Bordallo. Well, thank you very much, gentlemen. It is 
encouraging news.
    I yield back, Mr. Chairman.
    Mr. Forbes. Thank you, Madeleine.
    The gentleman from Georgia, Mr. Scott, is recognized for 5 
minutes.
    Mr. Scott. Thank you, Mr. Chairman.
    General Breedlove, as you know, Robbins Air Force Base is 
the heart of my district, and Fort Benning is just to my west, 
Kings Bay to my east. The Marine Corps Logistics Base in Albany 
is also in Georgia. And I want to thank all of you for what you 
mean to my State. And I, for one, want to do anything and 
everything that I can to help you be successful in your job.
    With that said, I would like to just ask a simple question. 
And as I listen and watch the news, the thing that we keep 
coming back to with regard to inefficiencies, if you will, 
seems to be driven by uncertainty, not knowing what your budget 
number is going to be, whether it is going to be a flat line or 
a 3 percent up or a 3 percent down.
    Would you be better served if the difference was split and 
you knew exactly what it was going to be, than the 
inefficiencies of not knowing? Would you be better off if you 
knew you were going to have 1 percent less if you absolutely 
knew that you were going to have it? Could you accomplish more?
    General.
    General Chiarelli. It is very, very difficult to do the 
work necessary to prepare a budget the size of the Army's 
budget in the amount of time I fear we are going to have to be 
able to do that. It creates all kinds of inefficiencies that we 
worry about because so many of our programs are interrelated.
    I ran into a particular program while doing capability 
portfolio reviews where I had over 200 launchers but only 100 
missiles, which made absolutely no sense. There was no one who 
planned to do that. And I am sure that something like that 
happens when you are forced at the last minute to put together 
all the documentation required to submit a budget without the 
appropriate time to do that in a very, very focused and correct 
way.
    So it does make it more difficult, and I believe it 
generates inefficiencies.
    Admiral Greenert. I would echo what General Chiarelli said. 
The mechanics of putting together a budget is extraordinary in 
the Navy and the Army, Marine Corps, Air Force.
    I would add that we need a strategy, you know, given a 
dollar value, even if it is a percentage, in my opinion, a 
strategy and guidance to deal with that change, be it up or be 
it down, I think is important, because that enables us to have 
a deliberate process that can be collaborative, and then we can 
pursue a joint or interagency solution, which tends to be more 
efficient than a rapid service-only kind of solution, which can 
be the manifestation of a short timeframe.
    General Dunford. Congressman, I would echo Admiral 
Greenert's comments. I think if we had a clear strategy, with 
predictability with resources that would be available, we would 
be more efficient.
    General Breedlove. I will pile on that remark. If we 
understood the strategy and the demand, that makes it easier 
for us to determine how to meet that demand.
    To your first point, Mr. Congressman, if we have a certain 
amount of budget cut, we can go to our force and constrict that 
force and maybe retain all of the different capabilities of 
that force. If the cut becomes so deep that you cannot find 
those efficiencies by taking portions of several capabilities, 
you may have to take an entire capability out in order to get 
to the deep savings that you need in depots, in modernization, 
in force structure and people and basing when you take an 
entire slice out.
    So understanding the depth of the problem up front allows 
us to make good decisions about how we would go after force 
structure as we are going to constrict.
    Mr. Scott. So if we did the budget on a 2-year basis, how 
much would that help, if you had a 24-month planning and 
execution timeline on the budget?
    General Breedlove.
    General Breedlove. Sir, I will step up to that first.
    Any stability in these kind of budgets are helpful. In 
fact, when we look at how we buy in space and other large 
procurement programs, the ability to put stability into a 
purchasing program allows the subcontractors and others to 
predict and count on and then produce in good quantities. So 
stability in budget is always helpful as we plan for these 
types of things.
    Mr. Scott. Gentlemen, my time has expired, but thank you 
for being here, and thank you for what you do for our country.
    Mr. Forbes. Thank you, Austin.
    The distinguished gentleman from Texas is recognized for 5 
minutes.
    Mr. Reyes. Thank you, Mr. Chairman, and thank you for 
calling this hearing.
    And, gentlemen, thanks for being here, and thanks for your 
service.
    Discussing this issue is always, I think, from my 
perspective, tenuous, because you don't want to give too much 
information to those that are wanting to know exactly what our 
status is, but I think it is very useful to us to be able to be 
in a position to see how we can best help, in terms of making 
each of the services ready and prepared for whatever challenge 
we have.
    My question is for General Chiarelli. And, you know, we 
have talked from time to time about the Army's plans to ensure 
that our soldiers in the field have that communications network 
that they need and that they have come to rely on here in 
carrying out the fight in the 21st century.
    So perhaps I will start by asking you to tell us a little 
bit more about the Army's network modernization strategy. And, 
most importantly, I think most of us are interested in, how is 
the Army prepared to stay ahead of the changes that technology 
makes literally every 6 months?
    General Chiarelli. Well, sir, thank you for that question.
    We are very, very pleased in something I indicated in my 
opening statement, the network integration exercise that we 
just conducted out of Fort Bliss, Texas. For the very first 
time here in the United States, we had the entire network 
deployed across Fort Bliss and White Sands. And it was an 
amazing, amazing exercise where we were able to see for the 
first time how the network integrates and, in fact, do many of 
the integration challenges that commanders are going to have 
downrange. We will have that next exercise in October.
    We published a sources-sought document--and this is what I 
find very, very exciting--out to the industry where we and 
TRADOC [United States Army Training and Doctrine Command] had 
seen gaps in network capabilities. Within 30 days, we had 71 
white papers come in, where industry had spent their own dime 
to put together products that fill those gaps. Many of them 
will be tested in October for the first time. This is 
noteworthy because, rather than using our R&D [Research and 
Development] money, industry has used theirs to bring to us 
products that they believe will fit the needs of the Army.
    We are pushing the network down to the tactical edge. And 
the network integration exercises to be conducted every 6 
months at Fort Bliss are going to prove to be valuable--
valuable to the COCOM commanders, to the warfighters, and, I 
believe, to the American taxpayers.
    Mr. Reyes. In terms of this first test that occurred--and I 
say that because, you know, we have gone from the introduction 
of the iPhone to now the iPhone 4. And that is an example of 
how that technology evolves and changes so quickly. So how is 
the Army--I want to get back to the question of, how is the 
Army preparing itself to stay ahead of that curve?
    Because I don't want to--the only thing I can relate this 
to is the B-52 bombers that were old when I was in Vietnam, and 
today we are still using them. Nothing against the B-52s, but 
in today's world technology changes so fast that I think we are 
in the position to make sure that we at least keep up with it.
    General Chiarelli. Well, we have done a couple of things. 
The first is to publish the first-ever operating environment, 
where we have set the left limits and the right limits of the 
Army's network and asked industry to build within that left and 
right limit. If they don't, we are not going to buy.
    We have changed our acquisition strategy. We are going to 
only buy as many as we need. The tendency has always been in 
the Army to find something and buy one for everyone. That is 
not what we are going to do. In capabilities packages that go 
over 2-year periods, we are going to buy what we need and then 
look for changes in technology to provide to follow-on forces 
in successive capabilities packages.
    All this is possible because of the network integration 
exercises that we are doing at Fort Bliss. And I really think 
it is going to change the way the Army acquires, in so many 
different ways.
    Mr. Reyes. Thank you.
    And, Mr. Chairman, I would invite and the ranking member 
come out and see, perhaps in October, the test, the second test 
on that. It is really remarkable, the way that it has been 
integrated, and I think it is the way of the future.
    Mr. Forbes. We would like to do that. And we are planning 
right now some trips to our various yards to look at them, and 
maybe we can put that on the list.
    The distinguished gentleman from Mississippi is recognized 
for 5 minutes.
    Mr. Palazzo. Mr. Chairman, thank you for hosting this 
hearing today.
    And thank you to our witnesses for being here and for the 
service to our country. I appreciate it.
    Ensuring the readiness of our Nation and our ability to 
respond to global threats is one of my number-one priorities 
here in Congress. We are, no doubt, in a time of serious 
uncertainty when it comes to the national debt limit and the 
path forward. Some in Congress have suggested that cutting 
defense spending is an acceptable way to meet the goals of 
deficit reduction. I couldn't disagree more with some of my 
colleagues that think of that.
    I have a few questions regarding our current issues of 
readiness. And if we have a little extra time, I would like to 
hear your thoughts about defense spending cuts.
    Admiral Greenert, I know the Navy has chosen to reduce the 
Marine Corps prepositioning stock in EUCOM [United States 
European Command]. Can you talk a little more about the 
decision to move two maritime prepositioning squadrons in the 
reserve status back to Jacksonville, Florida?
    Admiral Greenert. Well, actually, Congressman, what I am 
familiar with is moving the maritime preposition squadron 
readiness to what we call the ROS-5 [Reduced Operating Status-
5] status. I can speak to that. We did that in deliberation 
with the Marine Corps within the Department.
    There are three squadrons. The first two squadrons, which 
are very committed to a timeline to meet an operational plan 
requirement, that is on track. And the ROS-5, as we say, ready 
in 5 days, we view as an acceptable risk, again, in 
consultation with the Marine Corps. We have found that the 
Maritime Sealift Command has been very reliable in delivering 
in that ROS, be it ROS-5, -15, -30. And, again, after 
consultation and deliberations, we believe it is an acceptable 
risk.
    The movement of squadrons back to Jacksonville, I will 
research that, and I will have to get back to you on the detail 
of those particular individual squadrons.
    [The information referred to can be found in the Appendix 
on page 93.]
    Mr. Palazzo. Okay. Thank you.
    And I guess for General Dunford, with a smaller footprint, 
are we able to meet COCOM requirements?
    General Dunford. Congressman, the primary purpose of 
maritime prepositioning is to meet the combatant commander's 
operational plan requirements. Two squadrons would meet the old 
plan requirements.
    What is more important than the numbers of squadrons is the 
actual composition of the squadrons. And as long as the two 
remaining fully operational squadrons can carry about 80 
percent of a Marine Expeditionary Brigade's equipment, then I 
am comfortable that we can meet the combatant commander's 
requirements with two squadrons.
    What you lose with the loss of a third squadron actually is 
the day-to-day support for theater security cooperation and 
phase-zero shaping operations in the other combatant 
commanders' areas of operation.
    Mr. Palazzo. Do you believe the current mix of equipment is 
correct?
    General Dunford. Congressman, the equipment that we have 
aboard those ships right now are legacy construct. We are in 
the process, as I mentioned, of doing a detailed force 
structure review. Part of that detailed force structure review 
will take a look at what the organizational construct will be 
for the Marine Corps, and that will drive some changes in our 
equipment.
    So the current legacy squadrons are correct for today. We 
are going to make some changes to our tables of equipment, and 
that will incur some changes, as well, in the organizational 
construct of the squadrons.
    Mr. Palazzo. Do you have any idea of what kind of financial 
commitment we would be looking at, to go from legacy to the 
new--what you envision the force going to?
    General Dunford. Congressman, I don't have that available 
right now. We are in the process--this is a complicated issue. 
We are working with United States Transportation Command on 
some of the platforms that might be available, working very 
close with the Navy on the ships that would be available. And, 
of course, we are doing our own internal analysis on the actual 
equipment that we will require aboard those ships.
    So all that analysis will go on over the next several 
months. And I think, certainly, by the spring of next year, we 
will be prepared to come back and articulate the future of 
maritime prepositioning.
    Mr. Palazzo. That is all I have. Thank you, gentlemen.
    I yield back.
    Mr. Forbes. I thank the gentleman.
    The gentleman from Connecticut, Mr. Courtney, is recognized 
for 5 minutes.
    Mr. Courtney. Thank you, Mr. Chairman.
    And thank you to all the witnesses for your testimony 
today.
    Admiral Greenert, great to see you. Congratulations on the 
news that pretty soon----
    Admiral Greenert. Thank you, sir.
    Mr. Courtney [continuing]. It will be ``CNO'' only in front 
of your name.
    And I wanted to ask you a couple questions. Mr. Forbes 
talked a little bit earlier about some of the speculation 
regarding aircraft carriers. One of the other sort of topics 
that has been out there, in terms of the budget pressures--in 
fact, I think it was General Cartwright gave a speech recently 
where he talked about the SSBN replacement program and possibly 
looking at alternatives, such as a stretch Virginia, which, 
superficially, seems to have some attraction. In fact, this 
committee looked at that concept last Congress.
    And, I mean, given the fact that it would require a smaller 
missile, ICBM, that is not built right now, and I think there 
are lots of other questions that the design of that vessel 
would generate in terms of complications and certainly 
potential costs, I was wondering if you had any comment 
regarding that speculation that, again, is in the press about 
that as an alternative, a cheaper alternative to the Ohio 
replacement.
    Admiral Greenert. Yes, sir. I know a little bit more about 
it than what you have read--you and I have read in the press.
    General Cartwright, I have a lot of respect for him and his 
vision, and so it is probably worthy to look into. But what we 
know about it, we looked at a Virginia, if you will, module as 
one of the alternatives. That was reviewed by the Defense 
Science Board. And the SSBN-X concept that we are preparing for 
today was the ultimate outcome of that.
    I think we have to look at the survivability of such a 
vessel, a Virginia, with that missile compartment, the range of 
a missile. A smaller missile might limit options. And those are 
all part and parcel for the key performance parameters of the 
overall system that, again, we would have to look into.
    And redesigning the missile will obviously add cost, rather 
than just using the D-5 missile, and that could change the 
balance.
    So all of those items would have to be looked at again, 
because I think they would play into bear on the affordability.
    Mr. Courtney. And, again, this is really a mission that 
really is a core strategic goal which the Nuclear Posture 
Review and Quadrennial Defense--I mean, really, it has just 
been across the board that this is something that we have to 
build into risk assessment in terms of having a sea-based 
deterrence.
    So, again, I think the Navy did a terrific job, in terms of 
bringing down the cost per vessel with that process that you 
just described. And I am sure there are going to be additional 
efforts to try and see if there are other ways to find savings. 
But that concept just seems like fraught with delay and costs 
that, again, I think could really just boomerang in terms of 
what, you know, people are trying to achieve.
    The other question I wanted to ask you was, when myself and 
Mr. Forbes and others were pushing to boost the shipbuilding 
program for Virginia a few years back, I mean, we were 
certainly looking at numbers at the time that mission requests 
from combatant commanders for submarine deployments was roughly 
about 50 percent, in terms of what was actually being met. And 
I think those were, like, 2009 figures.
    I was wondering, again, just sort of put it in context, in 
terms of where--your testimony today, in terms of where we are. 
Are we going up, down, in terms of that? Or is that percentage 
pretty much the same today?
    Admiral Greenert. The percentage is, I would say, a little 
down. In other words, a number of years ago, the request by 
COCOM was 19, and we were able to provide 11 based on force 
structure--or, earlier mentioned, 16 versus 10. And these are, 
as you know, SSN days, SSNs out there deployed. So that is the 
context of that.
    Now, as you well know, if you look at our ship inventory, 
when it comes to submarines, 48 is the number that we testified 
a need to. That is the requirement. And we won't be able to 
meet that requirement through the years, which is why we are 
very focused on two Virginia-class submarines, a year to 
construction, to help meet that COCOM demand.
    Mr. Courtney. Great.
    Thank you, Mr. Chairman.
    Mr. Forbes. Thank you, Mr. Courtney.
    General Dunford, Mr. Rogers had a question. He had to leave 
to go to another hearing, but he wanted me to ask this 
question. If you were required to reduce your forces by 10,000 
or more within the next 18 to 24 months, how would that impact 
the Marine Corps?
    General Dunford. Chairman, first of all, we are at 202,000 
right now, and we still have many units that are well below the 
one-to-two deployment-to-dwell that General Chiarelli referred 
to earlier. So, until we draw down from Afghanistan, we can't 
significantly reduce our overall end strength.
    And we would have to, when we do reduce our end strength, 
do so in a measured way, so as not to break faith with the 
Marines that have done so much over the past 10 years. And the 
numbers of Marines that we can draw down in any given year is 
directly related to the numbers of Marines we enlisted 4 years 
prior.
    So our number for planning, for example, is somewhere in 
the vicinity of 4,000 a year is the maximum number of Marines 
that can be drawn down in a given year. Some years, it is a 
little bit less. But, on average, our planning figure is we can 
draw down about 4,000 Marines a year without breaking faith 
with Marines or their families.
    Mr. Forbes. Good.
    Admiral Greenert, I had another question for you regarding 
in the Air-Sea Battle concept. You know, we know that has been 
requested by Secretary Gates for, I think, over a year now. Any 
idea when we might be seeing that and how close we are to 
getting that out?
    Admiral Greenert. Thank you, Mr. Chairman.
    The study, if you will, is in Mr. Panetta's office--
Secretary Panetta. We anticipate he will look at it soon, give 
his comments. And we look forward to being able to release 
appropriate aspects of it in unclassified and classified form 
as appropriate. We look forward to that.
    Mr. Forbes. So we think that is pretty close?
    Admiral Greenert. I hope so, sir. You know, we are focused 
on it.
    Mr. Forbes. And just a couple more questions.
    General Dunford and General Chiarelli, you both talked 
about the reset portion and how important that was to you. I 
think, General, you talked about $10 billion for the Army if--
or how much was that for the Army?
    General Chiarelli. We are looking at $25 billion to $20 
billion.
    Mr. Forbes. Twenty-five-point----
    General Chiarelli. Twenty to $25 billion is going to be the 
total cost for reset----
    Mr. Forbes. Twenty to $25 billion.
    General Dunford, I think you said 12.
    General Dunford. Chairman, that figure combined our 
reconstitution and our modernization, as well. We have 
requested in the 2012 budget approximately $3 billion of reset. 
We have estimated that we will require an additional $5 billion 
of reset at the conclusion of hostilities, and need OCO funding 
for approximately 2 to 3 years after coming out. And then what 
I added in to that $12 billion was actually our initial 
estimate of modernization of $5 billion. So that is how I got 
to approximately $12 billion.
    We did have some other resources that we requested in 2011. 
We have received those resources, and now we are currently 
analyzing our request for 2013.
    Mr. Forbes. For both of you, if budget cuts came down and 
impacted your ability on that reset, the dollars that you had, 
how would that impact your timeline capability of doing the 
reset that you need?
    General Chiarelli. There are a number of answers to that 
question, sir.
    First of all, the bill doesn't go away. And we have been 
counting on 2 to 3 years after the end of hostilities being 
able to get OCO money, because that is a true cost of war, to 
do that reset.
    One might look at this year's reset budget and say, ``Army, 
you have $775 million that you are not going to be able to 
execute.'' That is correct, but that is because 41,000 pieces 
of equipment went into Afghanistan when we thought it was going 
to be coming back home to take care of the surge in 
Afghanistan. And, as you know, we make the estimates for reset 
2 years before the money actually gets to us. So, when changes 
occur, we have to have the equipment back in the States to do 
the reset; if the equipment doesn't come back, we can't do the 
reset. That is why we have that additional money this year.
    But that don't make the bill go away. That equipment is 
going to come back at some point in time, and when it does, it 
is going to have to be reset.
    Mr. Forbes. Okay.
    General Dunford.
    General Dunford. Chairman, our total procurement account in 
the Marine Corps, it runs about $2 billion. It has been steady 
for about 20 years. During this FYDP [Future Years Defense 
Program], we are projected to be at a high of about $2.7 
billion during the FYDP.
    So you can see what a $5 billion reset would do to our 
modernization account. It would have a significantly adverse 
effect if we were forced to pay the reset bill out of our 
baseline budget. Quite frankly, we wouldn't be able to get to 
where we need to get to along the timeline that we believe is 
critical.
    Mr. Forbes. And, Admiral Greenert, the last question I have 
for you. Going back to the numbers we were chatting about 
earlier on our shipbuilding plan, I think it would be fair to 
say that the Congress has been averaging about $15 billion over 
last three decades. This year, we put in $14.9 billion.
    As you know, CBO has come out with their report suggesting 
that, to follow your plan, you would need about $19 billion per 
year. I think some of your own figures--but I don't want to 
throw these at you--show that we would need about $17.3 
billion. But let's just take the CBO figures.
    How realistic do you think it is, with the budgets that we 
are seeing and proposed cuts, that we are going to have those 
kind of increases going into the shipbuilding plan over the 
next several years? And if we can't come up with a realistic 
scenario of getting those dollars, does that mean our 
shipbuilding plan is not a realistic plan?
    Admiral Greenert. If I may, Mr. Chairman, I looked at the 
CBO report, and, as we know, the differences vary by year, if 
you will, by tranche of years. First 10 years, we are pretty 
close. It is about inflation indices, labor differences, cost 
differences, and, really, the foundation, if you will, or the 
assumptions put into the design of the ships. We vary slightly 
on what the future ship might look like.
    But, nonetheless, to get to your question at hand, if we 
receive a reduction of the ilk we were talking about, $886 
billion, and we have to reduce force structure and we can't 
build ships to the level that we need to, then our shipbuilding 
plan--it gets back to strategy. I would have to change the 
strategy. So, as stated by all our leadership, we need a change 
in strategy.
    Mr. Forbes. Good.
    Now, for any of our four witnesses, anything that we have 
left out that you want to get on the record? Anything you would 
like to change that you have stated? We want to make sure you 
have the time to do that.
    General Chiarelli, any last comments that you have for us?
    General Chiarelli. Mr. Chairman, I can't think of any. I 
think you have done a very, very good job of covering the 
waterfront, so to speak.
    Mr. Forbes. Good. Well, thank you, General.
    Admiral, anything?
    Admiral Greenert. You covered our waterfront, as well, sir.
    Mr. Forbes. Good, good.
    General Dunford.
    General Dunford. Chairman, I would just probably echo 
something that General Breedlove said earlier. I think all the 
witnesses today joined the military in the 1970s, and probably 
what we found when we joined was certainly what looked to me 
like a hollow force with regard to equipment readiness and 
training and so forth. And we very much appreciate your efforts 
to ensure that, when we do draw down a force and we do take a 
look at where reductions might be taken in the budget, we do so 
in a measured way so that we don't end up, at the end of the 
day, with a force that is hollow in the future.
    Mr. Forbes. Good.
    And General Breedlove.
    General Breedlove. Sir, we just thank you for your 
stewardship of our military services. And if we do have to face 
the kind of budget cuts that we are hearing about, we look 
forward to being a partner with you to make sure that we get 
our forces right for the future.
    Mr. Forbes. Thank you, General.
    And I think, if you could just be patient, I think Ms. 
Bordallo has one last question.
    Ms. Bordallo. I thought we might end on a positive note. 
And I would like to ask all of the witnesses, how do we build 
on the progress that each of you discussed in terms of 
retaining the very capable force that we have now?
    We will start with you, General.
    General Chiarelli. Well, we can't lose their trust. And 
that is absolutely critical.
    The Chief of Staff of the Army has a great picture where it 
shows a soldier who is talking into a microphone, a lieutenant 
out in the field. And we really don't know what he is saying, 
but, as the chief often says, we are the only army in the world 
where, if he is asking for something, anything, he knows he is 
going to get it.
    And that is a level of trust we have with the soldiers of 
the United States Army. And we just need to make sure that, 
whatever we do, we never take away his ability and his belief 
that, if in combat he asks for it, he is going to get it, or 
she is going to get it.
    Ms. Bordallo. Admiral.
    Admiral Greenert. Very eloquently done by General 
Chiarelli. And I think he has hit a key part of it. Our sailors 
want to be challenged, and they want to feel that what they are 
doing is relevant. And they want to be--they need to be 
motivated, remain motivated.
    But the old saying in the Navy, I think, applies: You 
enlist the sailor; you reenlist the family. We have to be sure 
that our sailors believe that we will also take care of their 
families while they are away, deployed.
    Ms. Bordallo. Thank you, Admiral.
    General.
    General Dunford. One of our commandant's top priorities he 
describes is keeping faith with our Marines and their families.
    And I think there are two parts of that. The first is 
ensuring that if we are going to send them in harm's way, they 
have the wherewithal to accomplish the mission with a minimal 
loss of life or equipment.
    And the other part is that when they are focused on the 
mission, they don't have to look over their shoulder to see if 
they are well-supported back home. They know, as General 
Chiarelli said, that they can trust that the United States 
Marine Corps is taking care of their family and their loved 
ones when they are forward deployed.
    And I think those are the two key elements of maintaining a 
quality force in the future.
    Ms. Bordallo. General.
    General Breedlove. Thank you, ma'am. And I would echo a 
couple of the things my compatriots have already said.
    First of all, trust. And part of that trust is we don't 
send American soldiers, sailors, airmen, or marines to the 
battle with the second-best equipment or the second-best 
training. We have to continue to equip and train our force so 
that they can overcome anybody that gets in front of them.
    Second, again, is to challenge them. How do you train 
troops who are the most battle-tested we have ever had in our 
service? We have to continue to invest and to put our efforts 
toward giving them quality training that will not only prepare 
them for today's fight but the future fight that may be very 
different than today's.
    And then, finally, recognize their sacrifice and the 
sacrifices of their families as we go forward.
    Thank you, ma'am.
    Ms. Bordallo. I thank all of you gentlemen for the service 
that you have donated to our country. You have placed your 
entire life, your careers. And I think I join the--I am sure I 
join the Chairman in saying that we are tremendously proud of 
our men and women in the military service. Thank you.
    Mr. Forbes. We echo that.
    And, General Chiarelli, we will just tell to all four of 
you, it is the commitment of this subcommittee and this full 
committee that we are going to make sure that when those men 
and women are on that line and that microphone, that we are 
over here listening and making sure they get those resources. 
And thank you all for helping us do that.
    I now ask unanimous consent that non-subcommittee members 
be allowed to submit questions for the record for today's 
hearing. Is there any objection?
    And, without objection, so ordered.
    Mr. Forbes. With that, thank you all so much.
    And we are adjourned.
    [Whereupon, at 4:40 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             July 26, 2011

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 26, 2011

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T8163.001
    
    [GRAPHIC] [TIFF OMITTED] T8163.002
    
    [GRAPHIC] [TIFF OMITTED] T8163.003
    
    [GRAPHIC] [TIFF OMITTED] T8163.004
    
    [GRAPHIC] [TIFF OMITTED] T8163.005
    
    [GRAPHIC] [TIFF OMITTED] T8163.006
    
    [GRAPHIC] [TIFF OMITTED] T8163.007
    
    [GRAPHIC] [TIFF OMITTED] T8163.008
    
    [GRAPHIC] [TIFF OMITTED] T8163.009
    
    [GRAPHIC] [TIFF OMITTED] T8163.010
    
    [GRAPHIC] [TIFF OMITTED] T8163.011
    
    [GRAPHIC] [TIFF OMITTED] T8163.012
    
    [GRAPHIC] [TIFF OMITTED] T8163.013
    
    [GRAPHIC] [TIFF OMITTED] T8163.014
    
    [GRAPHIC] [TIFF OMITTED] T8163.015
    
    [GRAPHIC] [TIFF OMITTED] T8163.016
    
    [GRAPHIC] [TIFF OMITTED] T8163.017
    
    [GRAPHIC] [TIFF OMITTED] T8163.018
    
    [GRAPHIC] [TIFF OMITTED] T8163.019
    
    [GRAPHIC] [TIFF OMITTED] T8163.020
    
    [GRAPHIC] [TIFF OMITTED] T8163.021
    
    [GRAPHIC] [TIFF OMITTED] T8163.022
    
    [GRAPHIC] [TIFF OMITTED] T8163.023
    
    [GRAPHIC] [TIFF OMITTED] T8163.024
    
    [GRAPHIC] [TIFF OMITTED] T8163.025
    
    [GRAPHIC] [TIFF OMITTED] T8163.026
    
    [GRAPHIC] [TIFF OMITTED] T8163.027
    
    [GRAPHIC] [TIFF OMITTED] T8163.028
    
    [GRAPHIC] [TIFF OMITTED] T8163.029
    
    [GRAPHIC] [TIFF OMITTED] T8163.030
    
    [GRAPHIC] [TIFF OMITTED] T8163.031
    
    [GRAPHIC] [TIFF OMITTED] T8163.032
    
    [GRAPHIC] [TIFF OMITTED] T8163.033
    
    [GRAPHIC] [TIFF OMITTED] T8163.034
    
    [GRAPHIC] [TIFF OMITTED] T8163.035
    
    [GRAPHIC] [TIFF OMITTED] T8163.036
    
    [GRAPHIC] [TIFF OMITTED] T8163.037
    
    [GRAPHIC] [TIFF OMITTED] T8163.038
    
    [GRAPHIC] [TIFF OMITTED] T8163.039
    
    [GRAPHIC] [TIFF OMITTED] T8163.040
    
    [GRAPHIC] [TIFF OMITTED] T8163.041
    
    [GRAPHIC] [TIFF OMITTED] T8163.042
    
    [GRAPHIC] [TIFF OMITTED] T8163.043
    
    [GRAPHIC] [TIFF OMITTED] T8163.044
    
    [GRAPHIC] [TIFF OMITTED] T8163.045
    
    [GRAPHIC] [TIFF OMITTED] T8163.046
    
    [GRAPHIC] [TIFF OMITTED] T8163.047
    
    [GRAPHIC] [TIFF OMITTED] T8163.048
    
    [GRAPHIC] [TIFF OMITTED] T8163.049
    
    [GRAPHIC] [TIFF OMITTED] T8163.050
    
    [GRAPHIC] [TIFF OMITTED] T8163.051
    
    [GRAPHIC] [TIFF OMITTED] T8163.052
    
    [GRAPHIC] [TIFF OMITTED] T8163.053
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             July 26, 2011

=======================================================================

      
             RESPONSE TO QUESTION SUBMITTED BY MR. PALAZZO

    Admiral Greenert. The Mediterranean-based Maritime Prepositioning 
Squadron (MPSRON 1) will be relocated to the U.S. East Coast. Bids for 
layberths have yet to be sought, but the Blount Island Command in 
Jacksonville, FL, is one of many potential layberths on the East Coast 
being considered. The vessels do not have to be consolidated in a 
single homeport.
    The two other MPSRONs, based in the Pacific Ocean, meet all OPLAN 
and CONPLAN time requirements. [See page 25.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             July 26, 2011

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. FORBES

    Mr. Forbes. The QDR Independent Review Panel supported an increased 
force structure in both the NORTHCOM and PACOM areas of responsibility. 
We seem to be headed in a different direction. So, how do we balance a 
future smaller force to meet the increased needs in these and other 
areas?
    General Chiarelli. Anticipated reductions of forces in Iraq and 
Afghanistan will enable us to restore our strategic depth and allow us 
to meet other security obligations by reapportioning available forces 
to meet the current strategic guidance. Reducing the numbers of 
deployed forces will result in increased presence and activity at CONUS 
and OCONUS basing locations. This more stable force will be able to 
return to predictable training programs to prepare for full spectrum 
operations thereby placing increased requirements on our current 
facilities but resulting in better prepared forces to meet Combatant 
Commander (COCOM) requirements. These theaters do retain important 
capabilities and enablers. More effective force structure can be 
realized from the continued transformation of Headquarters (HQs) when 
appropriate and reallocation of selected enablers to the global force 
pool. The end state is increased capability the Army can provide to the 
COCOMs in support of full spectrum operations. Total Army Analysis for 
Fiscal Years 2014-2018 is currently ongoing and will enable the Army to 
provide the correct mix of organizations required to maintain a 
balanced and affordable force that is able to meet COCOM requirements.
    Mr. Forbes. The budget cited numerous ``efficiencies'' found in 
reductions to personnel through defunding civilian positions associated 
with insourcing initiatives and instituting a hiring freeze. Similarly, 
the Committee has received reprogramming requests that cite further 
savings in the reduction of contracted work. Where are we accepting 
risk by reducing contractors and civilian workers while undertaking 
large reductions in force structure?
    General Chiarelli. At this time, the Army is confident it is taking 
the necessary steps to mitigate the potential risks associated with 
reductions in the contractor and civilian workforce. Through a 
deliberate process, the Army works with commanders to right-size the 
civilian and contractor workforce and ensure there is no reduction in 
the level of services provided for soldiers and families. As force 
structure is reduced, we will make appropriate adjustments so that the 
workload and the work force remain balanced.
    Mr. Forbes. Please update the subcommittee on your Service's 
efforts to reset the force. What are the impacts of a delayed and/or 
scaled-down reset and reconstitution (R2) effort? How would such a 
reduction affect your mission capability? Are current OMB guidelines on 
modernization through reset too restrictive?
    General Chiarelli. Since the Reset Program began in 2002, we have 
Reset over 2.5 million pieces of equipment and, on average, 25 brigade 
sets of equipment annually. As a result of these efforts, our 
operational readiness rates of equipment in theater has generally met 
or exceeded 90 percent ground equipment and 75 percent aviation 
equipment. To date in Fiscal Year 2011, the Army has Reset over 80,000 
pieces of equipment at the depot level and over 500,000 pieces of 
equipment (e.g., small arms, Night Vision Devices, and chemical and 
biological protective items) through our Special Repair Teams. A scaled 
down Reset effort would cause the Army to experience a decline in the 
aggregate number of trained and ready combat capable formations to 
respond to any unforeseen contingency operations. Additionally, it 
would disrupt the current pace of equipment Reset at our national 
maintenance facilities.
    There is no degradation in equipment readiness attributable to 
current Office of Management and Budget Reset guidelines.
    Mr. Forbes. What are the long-term strategic implications to the 
force of providing ready deployed and deploying forces at the expense 
of non-deployed units?
    General Chiarelli. The high demand for forces over the course of 
the last decade has created a situation where the Army has to shift 
resources from the generating force to the operating force in order to 
maintain our required levels of manning for deploying units. From FY08-
FY11, non-deployable Soldier rates have increased approximately two 
percent each year, with the current non-deployable rate just over 16% 
of the active force. Of that percentage, 11,000 Soldiers are in the 
Disability Evaluation System (DES) with approximately 7,000 in the 
operating force and 1,900 currently assigned to units with a Latest 
Arrival Date (LAD). To ensure deploying units meet the deployment 
criteria at 90 percent available strength at departure for deployment, 
Human Resources Command (HRC) must over-man deploying units to ensure 
the deployment manning criteria is met. Non-deploying formations have 
reduced levels to provide the needed Soldiers. This impacts the ability 
of the Army to generate enough manpower to fill a deploying unit prior 
to participation in critical Mission Rehearsal Exercises (MREs) which 
usually occurs within 90 days prior to deployment. Consequently units 
are not as highly trained on collective tasks because all unit members 
did not participate in the MRE. Additionally, meeting administrative 
requirements and making up individual training for late arriving 
Soldiers places an additional burden on small unit leaders during a 
time when their focus should be on preparing the unit for deployment.
    The Army has also decremented the generating force to ensure our 
war fighting units are manned at an acceptable level for deployment in 
support of the full range of operations. If projected demand reduces in 
parallel with the reduction in Army force size and structure, the long-
term strategic implications are more manageable. However, if the future 
demand exceeds future supply, the Army will continue to have difficulty 
maintaining those institutions that facilitate unit deployments and 
provide for the professional development and training of our force.
    Mr. Forbes. To the extent possible in open session, please describe 
the impacts that any equipment shortages have had on full spectrum 
training?
    General Chiarelli. Equipment shortages do adversely impact full 
spectrum training. We know that 55% of units in the Army have less than 
80% fill across their authorized equipment sets. It has been a number 
of years since our Brigade Combat Teams have had enough dwell between 
deployments that they could focus on anything other than the counter-
insurgency training necessary for operations in Afghanistan and Iraq. 
As a result we have not had the benefit of unit commander's feedback to 
fully understand the second order impacts to full spectrum training.
    In the aggregate, the Army can provide most major systems (combat 
vehicles such as tanks and Bradley Fighting Vehicles, tactical wheeled 
vehicles, howitzers, weapons, etc); however, we continue to work 
through modernization issues (most notably C4ISR/network-related 
shortfalls) and selected shortages of low density but nonetheless 
important equipment like specific types of tool sets and test 
equipment, armored ambulances, etc. These shortfalls continue to 
adversely impact full spectrum training, and the Army expects that 
these impacts will become more apparent as more and more units are able 
to conduct full spectrum training. At the same time, the Army is now 
delivering much of what the Army invested in during the past five 
years; this, coupled with the reduction in numbers of Army units 
deployed in the CENTCOM area, should enable the Army to continue to 
make steady progress in improving our equipment on hand posture across 
the Army to support full spectrum training.
    Mr. Forbes. How are you adapting to budgetary reduction in FY 2011? 
What challenges would you experience should additional cuts be levied 
against you?
    General Chiarelli. With the Army still heavily engaged in 
operations in Afghanistan and to a lesser degree in Iraq, the $5.7 
billion reduction to our FY 2011 budget request required us to take a 
hard look at balancing what is required for meeting our current 
national security obligations while reducing risk to support future 
contingencies. The Army was able to adapt to some of the FY2011 
budgetary reductions by leveraging previous efficiency efforts such as 
reducing reliance on service support contractors and reducing civilian 
personnel to FY10 levels. However, the majority of the FY 2011 
reductions occurred in the Research, Development and Acquisition 
appropriations. The Army was able to work closely with congressional 
committees to identify areas with the lowest risk and greatest 
flexibility to absorb reductions and deferrals but these changes will 
still affect the delivery of capabilities in the future years.
    Additional reductions to the FY 2012 and 2013 budgets will require 
the Army to bring down manpower, readiness and procurement accounts in 
a balanced way to avoid creating hollowness in this force. Significant 
reductions would be extraordinarily difficult and impact nearly every 
Army equity, program and community. We must maintain faith with our 
Soldiers, Families and Civilians while meeting our critical 
modernization needs, resetting the force through our depot maintenance 
and sustainment operations and taking care of the behavioral health 
needs of our force.
    Mr. Forbes. The Army recently alerted this committee to roughly 
$751 million in excess reset funding due to improved condition of 
returning equipment, retention of equipment in Iraq for risk 
mitigation, and to accommodate growth of theater provided equipment 
(TPE) sets. How confident are you about your FY12 reset forecast? When 
does the ``bow wave'' of TPE reset hit? How are we leveling workload to 
ensure capacity across this trough for the coming wave? What happens if 
we stay in Iraq at their request beyond December 2011?
    General Chiarelli. The $751M excess in FY11 was a result of the 
late return of equipment from Iraq due to combatant commander risk 
mitigation. TPE in Iraq was retained beyond unit redeployment dates in 
order to ensure immediate equipment availability if a temporary troop 
increase was required to react to a crisis.
    Based on current National Strategy, the Army is confident that we 
have requested adequate funding for our FY12 Reset requirements. The 
Army estimates that the ``bow wave'' of TPE Reset for Operation New 
Dawn will occur between FY12 and FY14. Another ``bow wave'' will occur 
upon conclusion of operations in Afghanistan.
    We have the capacity and flexibility within our Industrial Base, 
both organic and private industry, to adjust to equipment Reset 
requirements as the operational system dictates. Additionally, a 
portion of our equipment Reset is completed by our units and our 
installations.
    Any delay in return of equipment from Iraq beyond December of 2011 
will result in an adjustment for future year Reset funding as our Reset 
requirements and liability is delayed further into the out years for 
execution.
    Mr. Forbes. LTG Stevenson testified earlier this year that the 
Army's reset liability is around $10 billion and will take about 2-3 
years to complete after major operations in CENTCOM end. What impact 
would significant reductions in budget authority such as the Senate's 
``Gang of Six'' $866 billion proposed cut have on Army reset and its 
readiness assuming ``persistent engagement'' bendy OEF/OND? How would 
it impact depots, arsenals, and ammo plants?
    General Chiarelli. Loss of Reset buffer of 2-3 years beyond the end 
of operations will result in difficult choices for the Army. The Army 
will likely be forced to decrement funding of essential equipment 
repair, training, Soldier services, and similar Army programs.
    The impact to arsenals, depots, and ammunition plants is equally 
significant. Adverse impacts could include civilian workforce 
reductions, dormant repair and production lines, reduced throughput, 
and decreasing equipment readiness.

    Mr. Forbes. The QDR Independent Review Panel supported an increased 
force structure in both the NORTHCOM and PACOM areas of responsibility. 
We seem to be headed in a different direction. So, how do we balance a 
future smaller force to meet the increased needs in these and other 
areas?
    Admiral Greenert. Navy must address several competing demands with 
the current force, which we adjudicate through the Global Force 
Management (GFM) Process. This process, led by the Office of SECDEF and 
Joint Staff, decides how to allocate operating ships and aircraft among 
the six regional Combatant Commanders based on the Guidance of 
Employment of the Force (GEF).
    Today, Navy is meeting the JCS-directed (via GFM) Combatant 
Commander needs. We don't have the capacity, though, to meet all 
unrestrained Combatant Commander requests for forces.
    Looking forward, our current shipbuilding and aviation plans 
balance the anticipated future demand for naval forces with expected 
resources. With anticipated funding being flat or declining in the 
future, we focus our investments to ensure the battle force has the 
capability for Navy's core missions with the capacity to be present 
forward in the most critical regions. At the same time, our plans take 
into account the importance of maintaining an adequate national 
shipbuilding design and industrial base.
    Assuming Navy forces will continue to be allocated by the GFM 
process to Combatant Commanders, the investment choices we make today 
will either enable or constrain what will be available. Given the 
potential for dramatic fiscal reduction, we need a comprehensive 
strategic review that takes a fundamental look at what we are asking 
our forces to do in an era of constrained resources. If Navy force 
structure is significantly reduced, a review is recommended in order to 
meet the global force management plan today and balance the needs of 
tomorrow.
    Mr. Forbes. The budget cited numerous ``efficiencies'' found in 
reductions to personnel through defunding civilian positions associated 
with insourcing initiatives and instituting a hiring freeze. Similarly, 
the Committee has received reprogramming requests that cite further 
savings in the reduction of contracted work. Where are we accepting 
risk by reducing contractors and civilian workers while undertaking 
large reductions in force structure?
    Admiral Greenert. In-sourcing is one of the tools the DoN and DoD 
will use to establish the appropriate mix of military, civilian, and 
contractor employees in our workforce to affordably accomplish its 
roles and missions. In addition to having the right skill set, our 
workforce must also be appropriately sized with the appropriate skill 
set. We are eliminating some civilian positions and reducing new hires 
to gain efficiencies and reduction in overhead. This reduces the number 
of overall positions we will in-source but balances the skill set, 
alleviating redundancy. The Department of the Navy is currently 
monitoring the impact of these reductions from FY11 and will continue 
doing so in FY12.
    Mr. Forbes. Please update the subcommittee on your Service's 
efforts to reset the force. What are the impacts of a delayed and/or 
scaled-down reset and reconstitution (R2) effort? How would such a 
reduction affect your mission capability? Are current OMB guidelines on 
modernization through reset too restrictive?
    Admiral Greenert. Navy is different in some respects from other 
Services in that we ``reset in stride''; that is, we rely upon regular, 
rotationally scheduled maintenance of our ships and aircraft, and 
training and certification of our crews between deployments, to sustain 
the long-term material condition of our force. Our Navy's reset in 
stride, when executed properly, translates into decades of assured 
service for each ship and aircraft, a good return on investment. This 
reset is intended to be funded every year, as opposed to only during a 
reset and reconstitution effort after contingency operations. As such, 
it should eventually be part of our baseline funding. Navy platforms 
will not reach Expected Service Life if OCO funding is not aligned with 
contingency operations, enabling ``reset in stride.''
    For expeditionary equipment used in operations ashore in Iraq and 
Afghanistan, it is estimated to take approximately two years to 
complete depot maintenance reset; the equipment will be reset after 
contingency operations are complete. Most expeditionary equipment is 
used for contingency operations, so maintenance is funded with OCO 
appropriations. If contingency operations cease without OCO funding for 
reset, expeditionary equipment readiness will be severely impacted.
    Navy does not deem current OMB guidelines on modernization through 
reset to be overly restrictive.
    Mr. Forbes. What are the long-term strategic implications to the 
force of providing ready deployed and deploying forces at the expense 
of non-deployed units?
    Admiral Greenert. To pay for ``ready deployed'' readiness expenses 
that are emergent or unplanned, we sometimes are compelled to reduce 
operating funding for non-deployed units to assure readiness of 
deployed forces. From a strategic perspective, this affects Navy's 
ability to support surge requirements. From a force provider 
perspective, this tends to reduces non-deployed maintenance and 
training funding as forces prepare to re-deploy to meet emergent 
requirements (deployed). This makes it difficult to maintain (long-
term) the material readiness of the force, and in some cases requires 
us to tailor training and certification of deploying units to 
``mission-specific'' qualifications, instead of the full spectrum of 
naval operations. In addition, reduced time non-deployed is a stress on 
our Sailors and Families.
    Mr. Forbes. To the extent possible in open session, please describe 
the impacts that any equipment shortages have had on full spectrum 
training?
    Admiral Greenert. With one exception, Navy training has not been 
impacted by equipment shortages. The exception is in Navy P-3 
squadrons, where wing fatigue life required the grounding of 
approximately one-third of the aircraft fleet. This has required 
mission-tailored training for deploying aircrews due to training 
aircraft availability. The corrective action is well underway and 
currently ahead of schedule.
    Mr. Forbes. How are you adapting to budgetary reduction in FY 2011? 
What challenges would you experience should additional cuts be levied 
against you?
    Admiral Greenert. In FY11, budget constraints inherent in the 
ongoing Continuing Resolution required the Navy to freeze new civilian 
hiring, limit some support functions, and adjust the schedules of some 
procurement contracts. We also identified efficiencies to reduce 
overhead costs--the impact of which we are still assessing.
    In FY12 and beyond, there are no obvious programs or activities in 
which to make further efficiency reductions, pending additional 
analysis and internal policy change. In the FY12 budget Navy proposes 
to cut overhead to reinvest in our ability to provide forces. It would 
be imprudent to make further overhead reductions without first 
evaluating the impact of these cuts.
    Mr. Forbes. At one time we relied heavily upon the Navy and Air 
Force to provide individual augmentees to meet ground force 
requirements in CENTCOM. What is that level of dependence now and how 
has the long-term use of sailors and airmen to meet ground force 
requirements impacted the readiness of the Navy and Air Force?
    Admiral Greenert. The Joint force still depends on Individual 
Augmentee (IA) Sailors to meet evolving ground force requirements in 
Iraq and Afghanistan as these conflicts have progressed through various 
phases. The Navy provides over half of its IA support in core Navy 
skill areas, such as cargo handling, airlift support, and Seabees. As 
of 01 September approximately 4,800 Sailors were serving in these 
``core'' missions. Navy also provides approximately 4,100 Sailors for a 
range of ``non-core'' missions, such as provincial reconstruction, 
detainee operations, civil affairs, and customs inspection. The Joint 
sourcing process to meet both ``core'' and ``non-core'' requirements is 
deliberate and currently focused on reducing IA requirements without 
unduly increasing the risk to mission success.
    Navy's FY12 end strength anticipates a phased reduction in IA 
demand for Iraq and Afghanistan. Should IA demand remain at current 
levels or increase, we will be challenged to meet manning requirements 
for the Fleet.

    Mr. Forbes. The QDR Independent Review Panel supported an increased 
force structure in both the NORTHCOM and PACOM areas of responsibility. 
We seem to be headed in a different direction. So, how do we balance a 
future smaller force to meet the increased needs in these and other 
areas?
    General Dunford. Tomorrow's Marine Corps, though smaller than the 
force conducting current overseas contingency operations, is not simply 
a reduced version of today's Marine Corps nor is it a reversion to the 
pre-9/11 posture. The imperative for the Marine Corps is to preserve 
capabilities developed since 9/11, expand our engagement efforts, 
respond to crisis, and still be able to project power for the most 
dangerous threat scenarios. To that end, we accept a degree of risk by 
reducing our active component capacity for conducting multiple, major 
sustained operations ashore, relying on an ``operationalized'' reserve 
component to mitigate that risk. Of necessity, our force structure 
represents many judiciously considered factors and makes pragmatic 
trade-offs in capabilities and capacities to achieve a posture that 
creates opportunity and provides an operational stance that enables 
flexibility and rapid response. The resulting force structure provides 
a force optimized for forward-presence, which facilitates both ongoing 
engagement activities and rapid crisis response; provides readiness for 
immediate deployment and employment; re-shapes organizations, 
capabilities, and capacities to increase aggregate utility and 
flexibility across the range of military operations; properly balances 
critical capabilities and enablers; creates an operationalized reserve; 
and creates opportunity for more closely integrated operations with our 
Navy, Special Operations, and inter-agency partners.
    We will use a conditions based approach to enable tomorrow's Marine 
Corps. As our forces draw down in Afghanistan, we will reorganize over 
time to the 186.8K structure. Although we will be smaller than today's 
force, we will ensure a robust forward presence in PACOM through a mix 
of forward deployed forces and a restart of the unit deployment 
program.
    Mr. Forbes. The budget cited numerous ``efficiencies'' found in 
reductions to personnel through defunding civilian positions associated 
with insourcing initiatives and instituting a hiring freeze. Similarly, 
the Committee has received reprogramming requests that cite further 
savings in the reduction of contracted work. Where are we accepting 
risk by reducing contractors and civilian workers while undertaking 
large reductions in force structure?
    General Dunford. In meeting the Secretary's (SECDEF) efficiency 
initiatives the Marine Corps is heavily engaged in many efforts aimed 
at improving our warfighting business operations. A thorough assessment 
of civilian labor across the Marine Corps, to include contractors, is 
one of the major actions the Commandant of the Marine Corps has 
undertaken to achieve efficiencies throughout the Marine Corps. To 
support this effort the Marine Corps implemented an enterprise wide 
freeze on all internal and external hiring actions for all appropriated 
fund positions back in December 2010. This action was designed to 
assist Headquarters Marines Corp activities and commands across the 
Corps in reconciling their current civilian workforce against manpower 
requirements and budgetary constraints. While hiring has resumed for 
some activities and commands, hiring actions will continue to be 
closely scrutinized to ensure requirement are balanced against fiscal 
constraints. To complement these efforts the Marine Corps has reduced 
personnel associated with infrastructure and headquarters support 
activities, with particular emphasis on duplicative functions across 
the enterprise. This reduction in ``tail'' functions and activities 
will allow rebalancing towards ``tooth'' functions and activities, thus 
sustaining the Marines Corps war fighting priorities. Additionally, the 
Marine Corps reduced civilian billets programmed for the future as a 
result of insourcing initiatives in order to meet reduced funding 
levels. While the Marine Corps is accepting risk in some of its 
management and oversight functions, the on-going strategic review of 
civilian and contractor requirements will allow the Marine Corps to 
mitigate that risk by rebalancing its civilian workforce based on 
validated requirements at all levels and functions across from an 
enterprise perspective.
    Mr. Forbes. Please update the subcommittee on your Service's 
efforts to reset the force. What are the impacts of a delayed and/or 
scaled-down reset and reconstitution (R2) effort? How would such a 
reduction affect your mission capability? Are current OMB guidelines on 
modernization through reset too restrictive?
    General Dunford. The Marine Corps has been planning a methodical 
reset of equipment from Operation ENDURING FREEDOM (OEF) while 
simultaneously executing Operation IRAQI FREEDOM (OIF) reset actions. 
This month marks the end of successfully resetting equipment that 
returned from OIF. Planning efforts for resetting equipment returning 
from OEF began early this year with a symposium to capture lessons 
learned from the draw dawn and reset of equipment deployed to OIF. The 
Commandant of the Marine Corps completed a Force Structure Review to 
realign personnel, and equipment structure to meet the requirements of 
the modern post-OEF Middleweight Force. A series of planning 
conferences have been conducted to refine our plans for redeployment 
and retrograde out of Afghanistan to leverage resources to enable an 
in-stride reset and reconstitute the force. The planning actions over 
the past year have enabled the Marine Corps to draft a strategic-level 
OEF Ground Equipment Reset Strategy scheduled for release in October, 
2011. As an enabler to Reset and Reconstitution, the Marine Corps will 
publish an OEF Reset Playbook that will synthesize our reset actions 
across the tactical, operational, and strategic levels in order to 
reconstitute to the Middleweight Force.
    A delayed and/or scaled down reset and reconstitution effort will 
result in persistent equipment and training shortfalls for a 
significant part of the Marine Corps. These shortfalls would require 
the Marine Corps to emphasize readiness for deployed and next-to-deploy 
units at the expense of the non-deployed force. The inability to 
properly resource non-deployed combat units to high levels of readiness 
would compel the Marine Corps to further adopt a form of ``cyclical 
readiness'' rather than steady force-wide readiness.
    A scaled down reset and reconstitution effort would negatively 
impact the Marine Corps' capacity to respond to unexpected crises or 
contingencies with non-deployed forces. Since a degraded non-deployed 
force would likely respond to an emergent crisis or contingency 
operation, the employing Combatant Commander loses depth, flexibility, 
and responsiveness for the unexpected. The strategic implication is 
increased time to respond to unexpected crises or large-scale 
contingencies.
    OMB has been supportive of the Marine Corps buying the latest 
versions of equipment to replace equipment losses from OEF. However, 
based on the current restrictions for spending reset funding, the 
Marine Corps is restricted from resetting aging equipment used for 
training our forces at home station. Thus, operational units preparing 
for deployment using equipment sets (e.g. Mojave Viper) for training do 
not meet the OMB criteria. We believe these equipment sets should be 
included in reset funding requests.
    Mr. Forbes. What are the long-term strategic implications to the 
force of providing ready deployed and deploying forces at the expense 
of non-deployed units?
    General Dunford. The non-deployed force provides the Nation depth 
and responsiveness for the unexpected. The long-term strategic 
implications of underfunding non-deployed units are:

        <bullet>  Increased risk in the timely execution of unexpected 
        crises or large-scale contingencies

        <bullet>  Increased risk in the successful execution of a 
        military response to unexpected crises or large-scale 
        contingencies at tolerable cost in American lives and materiel

        <bullet>  Increased risk in achieving a successful strategic 
        outcome to the crisis or contingency; the larger the crisis or 
        contingency, the greater the risk

    This question infers the long-term strategic implications of tiered 
readiness. Tiered readiness is the deliberate attrition of the non-
deployed force's combat capability and deployability in favor of 
sourcing planned rotational requirements; readiness is optimized for a 
known deployment.
    The major shortcoming with tiered readiness is meeting known, 
planned requirements is only one facet of readiness; the ability to 
respond to crises and contingencies with the non-deployed force is also 
important--something tiered readiness fails to properly take into 
account. Congress requires the Marine Corps to be most ready when the 
Nation is generally least ready. Tiered readiness is at odds with this 
mandate. The Marine Corps will leverage its non-deployed forces and 
task organize to meet crises and contingencies.
    Mr. Forbes. To the extent possible in open session, please describe 
the impacts that any equipment shortages have had on full spectrum 
training?
    General Dunford. The Marine Corps' training is focused on preparing 
forces for counterinsurgency operations (COIN) in Afghanistan. In pre-
deployment training, we strive to provide the same equipment that our 
Marines will use in theater. While there have been equipment shortages 
in both home station and at Service level training locations, these 
deficiencies have not significantly impacted our ability to meet pre-
deployment training requirements. Our equipment shortages reside in the 
following areas: 1) Counter Improvised Explosive Device (C-IED) 
equipment; 2) Command and Control (C2) equipment; and 3) Unmanned 
Aerial Vehicles (UAV) and other sensor systems.
    CIED Equipment: Effective C-IED operations require unique skill 
sets that are first developed through a progressively-challenging 
training program that encompasses individual and collective skill 
development at all levels of leadership. Examples of this highly 
specialized equipment include IED detection kits, metal detectors, 
counter-radio controlled IED electronic warfare systems (CREW) and C-
IED training lanes. The majority of these systems are fielded to 
support operational requirements in theater. To mitigate the finite 
amount of systems available for training, we provide support for 
standardized, home station training to the operating forces on all 
bases including equipment and technical expertise, as well as support 
for institutional pre-deployment exercises such as Enhanced Mojave 
Viper. Once deployed, Marines continue to train in order sustain their 
CIED skill-sets and integrate any newly fielded systems--often 
incorporating immediate lessons learned. Training and Education Command 
currently has personnel forward deployed to ensure this in-theater 
sustainment training and the lessons learned are institutionalized. 
Additionally, our Marine Corps Warfighting Laboratory is working with 
the Joint IED Defeat Office to further update equipment and mitigate 
any shortfalls.
    C2 Equipment: Units deploying to Afghanistan are directed to 
maintain specific C2 systems while in theater and to incorporate these 
systems into pre-deployment training. Due to technological advances, 
many of these systems are fielded rapidly to support operational 
requirements and most of the equipment resides in country. To mitigate 
the finite amount of systems available for training, we maintain MAGTF 
Integrated Systems Training Centers (MISTCs) at all major Marine Corps 
Bases. The MISTCs provide standardized, home station training to the 
operating forces on multiple C2 systems. Additionally, many of the C2 
system program initiatives allocate funding for Field Service 
Representatives (FSRs) from respective companies to both train Marines 
and provide on-site technical support.
    UAV/Sensor Systems: Much like C3 equipment, UAV and other sensor 
systems have been fielded rapidly, resulting in shortages of systems 
available at home-station. We alleviate our shortages through 
collaborative training with other Services and use of simulators. Units 
are also augmented with appropriate contracted field support from FSRs 
in Afghanistan.
    Mr. Forbes. How are you adapting to budgetary reduction in FY 2011? 
What challenges would you experience should additional cuts be levied 
against you?
    General Dunford. The Marine Corps maintains a long-standing 
reputation in the Department of Defense as being a frugal, lean Service 
that delivers the best value for the defense dollar. As such, the 
Marine Corps has adapted to budgetary reductions by continuing our 
tradition of pursuing ways to streamline operations, identifying 
efficiencies, and reinvesting savings in order to get the most out of 
every dollar. It is this mentality that has allowed us to continue to 
provide the best trained and equipped Marine units to Afghanistan, even 
in this era of constrained resources.
    The Marine Corps recognizes the fiscal realities that currently 
confront the United States, and we are already making hard choices 
inside the Service and ensuring that we ask only for what we need as 
opposed to what we may want. The Marine Corps is currently taking steps 
to rebalance the force while simultaneously posturing it for the 
future; additionally, we are continuing to maintain our forward 
presence and provide Marine combat forces to Afghanistan. We understand 
that the nation will face difficult resource decisions in the future, 
and additional cuts will impact the manner in which we address the 
challenges presented by an uncertain and ever-changing world. As such, 
the Marine Corps will resource the appropriate capabilities to remain 
the nation's expeditionary middleweight force and has a well analyzed 
plan for the reset and reconstitution of equipment which has been 
severely used during the last decade of war. Commensurate with our 
responsibility to maintain warfighting readiness, we must ensure that 
we keep faith with our Marines and their families. Additional budgetary 
reductions will influence our ability to accomplish all of these 
objectives while simultaneously continuing to conduct combat operations 
in Afghanistan. Accordingly, such budget reductions will result in 
increased risk, requiring careful consideration to ensure we maintain 
an effective and efficient force capable of providing operational reach 
and agility during times of
crisis.
    Mr. Forbes. The QDR Independent Review Panel supported an increased 
force structure in both the NORTHCOM and PACOM areas of responsibility. 
We seem to be headed in a different direction. So, how do we balance a 
future smaller force to meet the increased needs in these and other 
areas?
    General Breedlove. The Air Force will carefully enhance and 
modernize the capabilities of our legacy and fifth generation aircraft 
so as to balance our ability to meet the increased needs and Combatant 
Commander (COCOM) requirements within NORTHCOM and PACOM. The Air Force 
will continue to participate in the Department's Global Defense Posture 
discussions and will support the integrated process through which the 
Department validates and prioritizes defense posture initiatives and 
implementation. We will continue to work closely with the Office of the 
Secretary of Defense, the Joint Staff, other Services, and the COCOMSs 
as part of the ongoing Department of Defense Comprehensive Review to 
ensure our force structure is consistent with and fully advances U.S. 
National Security Strategy and National Defense Strategy objectives. In 
the face of an increasingly austere defense funding environment, the 
Comprehensive Review will guide future force structure decisions based 
upon sound strategy development. You can be assured the Air Force will 
endeavor to field the most capable force available, within size and 
funding constraints, to meet the requirements of the Joint warfighter, 
while balancing risk across the spectrum of operations.
    Mr. Forbes. The budget cited numerous ``efficiencies'' found in 
reductions to personnel through defunding civilian positions associated 
with insourcing initiatives and instituting a hiring freeze. Similarly, 
the Committee has received reprogramming requests that cite further 
savings in the reduction of contracted work. Where are we accepting 
risk by reducing contractors and civilian workers while undertaking 
large reductions in force structure?
    General Breedlove. We accepted risk in overhead and support 
services to ensure risks are reduced across mission capabilities and 
readiness, i.e. moving resources from tail to tooth. The contract 
efficiencies are aimed at reducing the Department's reliance on 
contract services. These reductions include service support contracts, 
knowledge based services, acquisition program overhead, and contractor 
supported studies.
    The Office of the Secretary of Defense efficiency objectives limits 
Air Force civilian growth above fiscal year 2010 levels. The Air Force 
is minimizing potential risk by conducting a highly-focused, strategic 
review of our entire workforce. We are reviewing all core functions and 
assessing trade-offs, to include reevaluating in-sourcing plans and 
implementing hiring controls to rebalance the workforce within existing 
resources. This review is also focused on reducing manpower in overhead 
and support functions to realign dollars and manpower to the most 
critical force structure and mission needs. Specific adjustments will 
be programmed as we work through our FY13 President's Budget. The Air 
Force will continue to reassess the need for additional steps to 
achieve necessary civilian workforce levels while minimizing the impact 
on current personnel.
    Mr. Forbes. Please update the subcommittee on your Service's 
efforts to reset the force. What are the impacts of a delayed and/or 
scaled-down reset and reconstitution (R2) effort? How would such a 
reduction affect your mission capability? Are current OMB guidelines on 
modernization through reset too restrictive?
    General Breedlove. There are no immediate impacts of a delayed and/
or scaled down reset and reconstitution effort to the Air Force. The 
Air Force R2 is structured and calendar driven. Aircraft and engines 
are continuously returned to meet regularly scheduled depot 
maintenance. For vehicles and support equipment, when the mission is 
complete a majority of these assets will remain in theater, with the 
exception of special purpose vehicles and generators which return to 
depot as needed. A reduction in overseas contingency operations funding 
will impact the Air Force's ability to meet future requirements.
    Current Office of Management and Budget (OMB) guidelines on 
modernization reset are not too restrictive. There are no immediate 
operational aircraft or equipment shortfalls due to current OMB 
guidelines; however, stressed fleets due to high operations tempo are 
accelerating service life, and mitigation strategies require longer-
term investments.
    Mr. Forbes. What are the long-term strategic implications to the 
force of providing ready deployed and deploying forces at the expense 
of non-deployed units?
    General Breedlove. The Air Force established a predictable, 
standardized battle rhythm to ensure rotational forces are organized, 
trained, equipped, and ready to respond to combatant commanders' 
requests for forces. Using a rotational construct, each unit undergoes 
a period of reconstitution before entering another deployment 
vulnerability period. When combatant commander requirements exceed the 
forces available in the vulnerability period, the Air Force either 
reduces the reconstitution period of ``non-deployed'' units or selects 
individuals from organizations with no designated combat capability 
(e.g., those who fulfill Air Force-level organize, train, and equip 
Operational Test & Evaluation (OT&E) responsibilities).
    Continued periods of reduced reconstitution have long-term effects 
on unit readiness and affect the health and welfare of Airmen and their 
families. Additionally, sustained deployment of over 20 percent of our 
individual Airmen from organizations with Service-level OT&E 
responsibilities will reduce our ability to sustain operations and 
provide ready, trained, and equipped Airmen for future engagements.
    Mr. Forbes. To the extent possible in open session, please describe 
the impacts that any equipment shortages have had on full spectrum 
training?
    General Breedlove. Ongoing operations continue to pose a challenge 
to Air Force equipment and supplies. Overseas contingency operations 
(OCO) funding has been instrumental in avoiding shortfalls and 
maintaining critical capabilities for our Joint force commanders.
    The Air Force is currently experiencing a shortage of advanced 
targeting pods (ATP) that are used during operational deployments on 
Combat Air Forces aircraft. Because the quantity of ATPs available is 
below the requirement, the Air Force can only support pre-deployment 
training and deployed operations, leaving a limited number of pods to 
support day-to-day training.
    ATPs are not permanently assigned to a particular aircraft or unit; 
rather they are moved between units to support the priorities set by 
Air Combat Command as follows: current combat/contingency operations; 
Air Expeditionary Force spin-up training for units within the four-
month prior to deployment window; test requirements; continuation 
training for operational/combat-coded units; and lastly, flying 
training units (FTU).
    Mr. Forbes. How are you adapting to budgetary reduction in FY 2011? 
What challenges would you experience should additional cuts be levied 
against you?
    General Breedlove. The budgetary reductions presented execution 
challenges and impacted areas requiring mitigation strategies that 
drove risk and tradeoffs. Congressionally-mandated operations and 
maintenance (O&M) reductions were absorbed in areas such as civilian 
pay, base support, and facilities, sustainment, restoration, and 
modernization (FSRM). The reductions delayed new mission beddowns, 
airfield, runway, dorms, and utility infrastructure projects. They 
drove operational workarounds and inefficiencies and increased 
sustainment costs. Reductions also slowed the civilian hiring process. 
The Air Force is committed to achieving efficiencies across the force 
and will continue to make tradeoffs to preserve our most important 
capabilities while supporting current operations and taking care of our 
men and women in uniform. This late in the execution year, we do not 
expect any additional budgetary reductions.
    Mr. Forbes. The Air Force has reduced its flying hour training 
program and reexamining its mix of live and virtual training including 
opportunities to rely more on the use of simulators. How will the Air 
Force measure the impact of changing the mix of live and virtual 
training on the quality of training as well as individual and unit 
readiness?
    General Breedlove. The Air Force leverages critical live fly 
training with increasingly capable virtual training devices and 
simulators. In a continual process, the Air Force reassesses the mix 
between live fly and virtual training to strike the right balance. As 
simulator technology and fidelity improve, training methods and 
simulator capabilities are assessed to ensure requirements are met as 
efficiently and effectively as possible. The Air Force has already 
shifted a significant amount of live fly training into our simulators. 
Reductions in flying hours require investments in infrastructure and 
training system upgrades and procurement.
    Unit commanders assess unit readiness on a monthly basis via the 
Status of Resources and Training System (SORTS) and the Defense 
Readiness Reporting System (DRRS). Individual readiness is tracked with 
unit training programs. Any negative training impact to Air Force 
operational readiness would be reported and tracked through those 
reporting systems.
    Mr. Forbes. Each Air Force unit is designed to perform a specific 
mission requiring a particular skill set. However, Air Force personnel 
may be assigned to support current operations by deploying to perform a 
related mission that does not necessarily require their full skill set. 
When individuals are engaged in operations that require only a subset 
of their full skill set, their competence in some other skills may 
erode because the individual is unable to complete the full extent of 
their training requirements to remain qualified in their core mission. 
To what extent has the Air Force identified unit types or career 
specialties in which assigned personnel are not receiving comprehensive 
training for their core missions and what steps, if any, have been 
taken to mitigate any identified gaps in training?
    General Breedlove. The Air Force approved specialized procedures 
for maintaining specialty skills to include comprehensive training 
management processes. Air Force Instruction (AFI) 36-2201, Air Force 
Training Program, requires supervisors to review the training records 
of enlisted Airmen prior to their deployment to ensure the training 
continuum is not broken. In turn, the supervisors document any 
remaining upgrade training requirements and training remarks as 
appropriate on the On-the-Job Record Continuation Sheet, or automated 
version. If Airmen are out of their career specialties long enough to 
diminish the proficiency in their particular specialty skills set, 
Airmen will increase their proficiency in lost competencies through 
force development programs that include any combination of education, 
training, and experience (i.e., Career Development Courses, on-the-job 
training, and/or specific placement in development positions).
    Additionally, the Air Force trains rated personnel in accordance 
with 11-series Mission Design Series (MDS)-Specific Volume 1 AFIs, 
which identify events that must be accomplished for aircrew personnel 
to maintain mission qualification and currency. Depending on real-world 
mission requirements, some skill sets may experience a loss in training 
in order to accommodate immediate mission requirements, which reinforce 
other skill sets. When personnel return to their unit, individuals 
receive the necessary training to regain proficiency in unit mission 
tasks and accomplish training events as necessary to comply with Volume 
1 requirements. This is a recognized issue associated with the Air 
Expeditionary Forces (AEF) cycle, and it is provided for in the cycle 
dynamic. The Air Force is standardizing deployment lengths to 179 days 
and increasing dwell to afford more time for reset and training 
opportunities. The Air Force restructured the AEF to include tempo 
banding for high-stressed capabilities in response to the long-term 
surge.
    Mr. Forbes. The Air Force has been flying CENTCOM sorties since 
Operation Desert Storm. General Breedlove, do you anticipate a similar 
operational tempo post-Operations New Dawn and Enduring Freedom? What 
is the impact to the Air Force's aging fleet of aircraft? How 
important, then, do reset and modernization become? How would deep cuts 
impact your ability to modernize/recapitalize?
    General Breedlove. Yes, we anticipate a similar operational tempo 
post-Operations New Dawn and Enduring Freedom. The readiness of Combat 
Air Forces aircraft is adequate despite challenges from accumulating 
hours on our fleet due to continuing combat operations in multiple 
theaters of operation.
    Delays in the F-35 program increase our reliance on an aging legacy 
fighter fleet, driving the need to extend legacy fighters' service life 
and modernize their combat capability. Air Force actions to extend and 
modernize the legacy fleet are a bridge to 5th generation capability 
and are not considered replacement actions. The F-16 Service Life 
Extension Program (SLEP) is one example of the effort to mitigate the 
fighter force capacity shortfall. Additionally, development of a Long 
Range Strike family of systems, including a new Long Range Strike (LRS) 
bomber and next generation, extended-range standoff missiles, allows 
the Air Force to address anticipated threats.
    To keep our legacy platforms viable, the Air Force intends to use 
funds saved through efficiencies to subsidize modernization. One such 
example is our plan to retire six B-1 bombers and use the savings to 
fund modernization and sustainment upgrades for the B-1 fleet. 
Restrictions on the proposed B-1 retirements would reduce our overall 
savings by a minimum of $290 million (an 80 percent reduction in 
savings), limiting our ability to maintain a viable B-1 fleet.
    The readiness of the Mobility Air Forces remains high while meeting 
robust and dynamic operational requirements. Our airlift fleet 
continues to provide strategic airlift as well as theater and direct 
support airlift missions moving personnel and a wide variety of 
equipment and supplies. The awarding of the KC-46A contract starts the 
timeline for recapitalizing our aerial refueling aircraft. Delays or 
reductions in KC-46A production will have impacts on Air Force 
readiness and ability to meet operational requirements. Reset and 
modernization are essential to ensure continued readiness of our fleet 
inventory.
    Mr. Forbes. The Air Force just released figures to the HASC that 
they have spent $433M of O&M on Libya. Where in O&M did that money come 
from? What is the impact? Does this indicate significant financial 
commitments we should consider beyond OEF/OND when making budgetary 
decisions?
    General Breedlove. Approximately three-quarters of the Libya costs 
are attributed to flying hours, which are being paid for within the 
flying hour program. The Air Force flying hour program has not been 
reduced, nor have air operations training been deferred, to support the 
U.S. participation in Libya operations. However, unused/available 
flying hours from the F-22, C-130, and C-17 platforms have been 
realigned to KC-135, KC-10, operational support aircraft (OSA), and F-
16 platforms to support emerging and high priority flying/training 
requirements, one of them being the Libya operation.
    The accrual of unused/available flying hours can be attributed to a 
variety of reasons:
    Mobility Air Force (MAF) hours were available from the following 
weapons systems: C-130s: Aircraft are being used to support increased 
US Transportation Command operations and are not available for 
programmed training hours; PACAF C-17s: Hours available due to 
execution slightly below programmed hours.
    Unused/available MAF flying hours were moved to the KC-135, KC-10 
and OSA flying hour programs. In the Combat Air Forces (CAF), F-16 
execution rates are much higher in support of Libya operation than at 
home station. CAF was able to cover approximately 70 percent of the 
increased flying hour requirement with F-22 hours available due to the 
stand down of that platform. The remaining Libya costs represent, in 
part, airlift bills sourced from unused Airlift Readiness Account 
funding available because Transportation Working Capital Fund cash 
balances are sufficient. Additionally, other costs (e.g. travel, 
command, control, communications, and computers, and global lift & 
sustain) were cash-flowed by major commands and are being offset by 
deferred facilities sustainment and restoration expenses and reductions 
in contractor support.
    The Air Force will continue to support the Department of Defense 
contingency operations as high-priority requirements, and there will 
likely be significant financial commitments required to support those 
operations in future years. However, in a fiscal environment with 
declining toplines, identifying, budgeting, and justifying dollars for 
unforeseen contingencies will be increasingly important to maintaining 
critical Air Force warfighter capability.
    Mr. Forbes. At one time we relied heavily upon the Navy and Air 
Force to provide individual augmentees to meet ground force 
requirements in CENTCOM. What is that level of dependence now and how 
has the long-term use of sailors and airmen to meet ground force 
requirements impacted the readiness of the Navy and Air Force?
    General Breedlove. The Air Force currently has 4,893 personnel 
deployed to support Joint Expeditionary taskings (ground forces) and 
2,541 supporting Individual Augmentee (headquarters staff) taskings--a 
total of 7,434. This is a decrease from 12,896 in 2009.
    Although certain career fields are experiencing high opstempo which 
presents challenges regarding dwell times and individual training, the 
Air Force will continue to use innovative approaches to mitigate 
operational impacts. Current unit reporting via the Status of Resources 
and Training System (SORTS) and the Defense Readiness Reporting System 
(DRRS) indicates no adverse impact to overall Air Force operational 
readiness from supporting joint fight requirements.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LOBIONDO

    Mr. LoBiondo. What are some examples of the negative impact of O&M 
funding reductions to training?
    General Chiarelli. Given the current fiscal environment, the Army 
is examining possible negative impacts of potential operations and 
maintenance (O&M) funding reductions to training by assessing 
adjustments through the three dials I spoke of in my opening statement. 
Potential reductions carry different risks, and our analysis continues 
to be aimed at reducing the impacts of that risk while maintaining a 
versatile mix of tailorable and networked organizations, operating on a 
rotational cycle to provide a sustained flow of trained and ready 
forces for full spectrum operations and to hedge against unexpected 
contingencies--all at a tempo that is predictable and sustainable for 
our all-volunteer force. Potential reductions to the Ground OPTEMPO and 
Flying Hour Programs may impact on the Army's ability to provide units 
trained for Full Spectrum Operations by reducing the funded miles and 
crew hours thereby curtailing the number and intensity of training 
events at Company, Battalion and Brigade levels at home stations and at 
the Combat Training Centers. As a consequence, the Army could be 
challenged to prepare for contingencies across the spectrum of conflict 
and may require more time to prepare larger formations for deployment 
after notification of a requirement to deploy. Potential reductions 
could also impact the Army's ability to execute home station individual 
and collective gunnery training by limiting the availability of ranges 
and deferring replacement of damaged targets. Range modernization 
efforts may be impacted as the construction footprint of several MILCON 
projects will not have Unexploded Ordnance clearance completed. 
Reductions to Mission Training Complex capabilities could limit 
Battalion and Brigade staff proficiency on their mission command 
systems in a realistic training environment due to facility 
availability and exercise design limitations. The Training Support 
Centers may not be able to provide Instructor/Operator support for 
numerous complex virtual trainers, including for flight simulators and 
support for Medical Simulation Training and other training devices. The 
Army may have to curtail units scheduled to train at the Combat 
Training Centers or send only portions of those units limiting the 
training value derived from training with a world class Opposing Force 
(OPFOR), detailed and impartial After Action Review from the Observer 
Controllers, and a robust Contemporary Operating Environment enabling 
concurrent and simultaneous training in multiple environments against 
hybrid threats. Potential reductions may impact on the Army's 
Institutional Training capability to conduct Initial Military Training 
and critical functional skills. This could result in a potential back 
log of recruits awaiting training at the institutional training base. 
Soldiers may not receive duty specific skill training required by the 
Soldier's unit thus contributing to degradation in unit readiness. 
Additionally, funding reductions may impact the Army's ability to 
develop agile and adaptive leaders at all levels by reducing the Army's 
capacity to conduct Professional Military Education. We are looking to 
Congress to help the Army maintain balance. As the committees consider 
their reductions the Army is ready to assist by providing our 
assessment of any and all specified reductions.

    Mr. LoBiondo. What are some examples of the negative impact of O&M 
funding reductions to training?
    Admiral Greenert. Navy O&M funding in support of training is 
adequate in the current execution year (FY11), and as proposed in the 
Navy budget submission for FY12.

    Mr. LoBiondo. What are some examples of the negative impact of O&M 
funding reductions to training?
    General Dunford. The Marine Corps remains committed to continued 
success in Afghanistan by providing the best trained and equipped 
forces. The Fiscal Year 2013 budget submission continues to fund core 
skills required for continued success in Afghanistan while also 
investing in irregular warfare capabilities like MARSOC, MARFORCYBER, 
and five new Marine Expeditionary Command Elements. Impact of funding 
reductions will be in the form of reduced capacity in the following 
areas:

    <bullet>  The Marine Corps' force structure must provide a 
strategically mobile, middleweight force optimized for rapid crisis 
response and forward-presence.

        <all>  Budget cuts have a disproportionate impact on the Marine 
        Corps. For 8.5 percent of the annual Defense budget, the Marine 
        Corps provides approximately 31 percent of the ground operating 
        forces, 12 percent of the fixed wing tactical aircraft, and 19 
        percent of the attack helicopters in the Joint Force.

        <all>  A reduction in training will further challenge the 
        Marine Corps to respond to 2 large scale regional contingency 
        operations.

    <bullet>  A reduction in Operations and Maintenance funding will 
impact training across a wide spectrum of activities.

        <all>  Capacity to support Geographic Combatant Commanders 
        requirement for forward deployed presence. Demand to support 
        Theater Security Cooperation requirements outpaces the Marine 
        Corps capacity to satisfy the demand.

        <all>  Enhanced small unit training (squad and below) would be 
        at risk. Small unit training is essential for success in 
        distributed operations such as in our most recent campaigns in 
        (OIF and OEF).

        <all>  Large scale training would be impacted at the Marine Air 
        Ground Task Force (MAGTF) level. Immersion of Marines into 
        large scale decentralized training environments has been a 
        vital part of pre-deployment training programs and has improved 
        leadership decision making at all levels.

    Mr. LoBiondo. What are some examples of the negative impact of O&M 
funding reductions to training?
    General Breedlove. The high tempo of Air Force operations and the 
use of Overseas Contingency Operations (OCO)/Transportation Working 
Capital Fund (TWCF) hours in support of Combatant Commander taskings 
has masked our true training flying hour requirements. The Air Force 
base budget for the operations and maintenance (O&M) flying hour 
program has declined 29 percent in the last seven years. Failure to 
smoothly transition the appropriate number of hours from OCO/TWCF to 
normal O&M flying hour programs as overseas contingency operations wind 
down will result in readiness challenges for the Air Force.
    Additional reductions could have cumulative impacts on future 
years, such as reducing the number of aircrew members who gain 
``experienced'' status in their first operational assignment. This, in 
turn, could create deficits in filling critical flight instructor and 
rated staff positions.
    Mr. LoBiondo. What do you believe is the recapitalization solution 
for the ASA units that sit alert for NORAD while also training for and 
supporting other combatant commanders through overseas deployments, 
especially given some of the findings of the ASA report issued to 
Congress a couple of months ago?
    General Breedlove. Defending the homeland remains a priority for 
the Air Force as we organize train and equip forces for the joint 
warfighter. Recapitalization of the Aerospace Control Alert (ACA) 
force, previously known as Air Sovereignty Alert (ASA), is one part of 
the much broader perspective of having the right mix of capabilities in 
the right components (active, Guard, Reserve) performing the right 
missions. We will find the right balance between anti-access 
capabilities (5th generation stealth) across all components balanced 
with an alert aircraft fleet that is capable of performing the air 
sovereignty mission of defending the homeland.
    As the Air Force completes the final moves of the Combat Air Force 
(CAF) Redux plan (FY 08-12) this coming year, all Air National Guard 
(ANG) units, including those who sit ACA duty, will have the necessary 
platforms to perform their assigned missions. In support of this plan, 
Burlington Air Guard Station, Vermont has been identified as the 
Preferred Alternative for the first F-35A ANG unit, with the final 
basing decision expected to be made in the summer of 2012. As the 
various models of F-15s and F-16s approach the end of their forecasted 
service lives, the Air Force will continue to use the principles of 
Total Force Integration to balance the proper capabilities across all 
components.
    As such, NORAD's recent report to Congress on the ACA mission, in 
the Air Force's view, did not warrant any immediate recapitalization 
solutions. Overall, the Air Force assesses current capabilities across 
the joint community are well-matched to the estimated threat level.
    Mr. LoBiondo. The Air Force has been challenged in recent years to 
keep backlogged aircraft maintenance low and mission capable rates up, 
even as optempo remains high and aircraft continue to age. What is the 
Air Force doing to keep platforms going beyond their expected service 
life? Do you expect that optempo will remain steady? If so, how vital 
then is adequate funding for aircraft operation and maintenance?
    General Breedlove. The Air Force remains focused on maximizing 
aircraft service life through a number of formalized fleet health 
sustainment programs. Most platforms leverage proactive integrity 
programs, such as the Aircraft Structural Integrity Program, in which 
areas such as airframe strength, durability, damage tolerance, 
corrosion control, and material defects are closely managed. 
Additionally, avionics modernization programs focus on continuous 
avionics and software systems upgrades to capitalize on emerging 
technology to address diminishing manufacturing sources and retain 
capability in dynamic threat environments. Furthermore, many platforms 
undergo formal Service Life Extension Programs, in which structural, 
propulsion, avionics, and mechanical subsystems upgrades are combined 
into one modernization effort. The Air Force also utilizes the Fleet 
Viability Board process to provide an independent source for 
operational health, associated availability, and cost of continued 
ownership to assist with sustainment and recapitalization investment 
decisions. Lastly, the Air Force Scientific Advisory Board promotes the 
exchange of the latest scientific and technical information to enhance 
the accomplishment of the Air Force mission. These proven programs are 
critical to ensuring continued airworthiness for service life 
extensions.
    We expect the tempo for Air Force operations to remain the same. 
The required capability areas will shift with mission requirements but 
the overall Air Force support will be largely unchanged. Adequate 
funding will ensure supply chains, maintenance operations, and flying 
operations are not further stressed, which could negatively impact war 
readiness engine levels, aircraft availability, and mission readiness. 
As such, adequate funding to support these programs is vital to mission 
capability across the entire fleet.
                                 ______
                                 
                   QUESTION SUBMITTED BY MR. LOEBSACK

    Mr. Loebsack. One of the concerns I have regarding our readiness as 
we draw down in Iraq and Afghanistan and as we review future budgets 
and our future readiness posture is that we don't repeat the mistakes 
of the past when we lost critical organic manufacturing capabilities.
    It makes little sense to lose the workforce that has built the 
equipment for our troops in combat over the past ten years and to 
shutter the manufacturing base that has produced that equipment. That 
is why I've been working with Congressman Schilling to expand the 
authority for the Army's industrial facilities to enter into public-
private partnerships to maintain the critical skills and workforce that 
are essential to Army readiness. But I am concerned that the Army does 
not have a long-term plan in place for workloading the facilities.
    Can you outline what plans the Army is pursuing to ensure that the 
Army's organic manufacturing base has the workload necessary to 
maintain its critically needed capabilities?
    General Chiarelli. The Army continues to employ a multi-pronged 
approach to maintain sufficient workloads at the Army's manufacturing 
Arsenals in order to ensure their workforce strengths and skill sets 
are sustained to meet future contingency operations.
    The Army has taken the following steps to mitigate projected 
workload reductions in Overseas Contingency Operations (OCO) funded 
workloads at the Army manufacturing Arsenals: The Army has drafted an 
Organic Industrial Base Strategic Plan (OIBSP) that provides the 
framework for ensuring that the Army's Arsenals and Depots remain 
viable and relevant in a post-OCO funded environment. The four pillars 
of the Army OIBSP are:

        (1)   Modernization, which requires investment in new 
        technology, training and plant equipment at the same rate that 
        the Army modernizes its weapon systems;

        (2)   Capacity, which identifies and aligns core competencies 
        and workloads to support current and future surge requirements 
        while maintaining effectiveness and efficiencies at each 
        facility;

        (3)   Capital Investment, which requires the investment in our 
        facilities to maintain ``state-of-the-art'' capabilities and 
        quality of work environment (QWE) standards; and

        (4)   Resource Alignment, which requires the Army to prioritize 
        funding in support of these four pillars to achieve the desired 
        end state--viable and relevant OIB facilities.

    <bullet>  Foreign Military Sales (FMS)--The Army is exploring 
opportunities for Army Arsenals to manufacture replacement gun tubes 
and other components for nations that purchase Excess Defense Article 
(EDA) howitzers and other equipment. A Security Assistance option with 
increasing potential is the EDA program that allows countries to 
acquire excess defense items or equipment at either reduced or no cost 
to eligible foreign recipients on an ``as is, where is'' basis.
    <bullet>  The Army Materiel Command's (AMC's) TACOM Life Cycle 
Management Command, the Army's parent organization for Army Arsenals, 
recently hosted a 3-day summit for its commercial partners, Army 
Program Executive Offices (PEOs), Program Management Offices (PMOs), 
and the Army's OIB activities. The objective of the 3-day summit was to 
highlight the Army's OIB capabilities and identify opportunities for 
the Arsenals to partner with commercial firms in order to meet future 
PEO/PMO requirements.
    <bullet>  We continue to invest in the manufacturing Arsenal 
infrastructure to ensure that the facilities are modernized with 
advanced technological capabilities. Capital investment improvements 
total close to $25 million in FY11 and are expected to remain at this 
level through the Five Year Defense Plan.
    The Army also supports current HASC and SASC legislative language 
in the National Defense Authorization Act which authorizes the 
Secretary of the Army to designate Army Arsenals as Centers of 
Industrial and Technical Excellence (CITEs) in the recognized core 
manufacturing competencies and also enhances the Arsenals' ability to 
establish workshare agreements with private industry through Public 
Private Partnerships. CITE designation will recognize and preserve Army 
Arsenal core manufacturing competencies, enhancing their ability to 
better compete for work and gain greater PEO/PM recognition.
    The bottom line is that the Army OIBSP recognizes the critical role 
of the manufacturing Arsenals within the integrated industrial base and 
is aggressively pursuing opportunities to increase Arsenal workloads at 
a sustained level over time.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. OWENS

    Mr. Owens. As the Representative for Fort Drum I'm sure you 
understand that I have paid particular attention to the proposed end 
strength put forward by the Army. To that end, you note in your 
testimony that the Army is working towards ``achieving the authorized 
end strength of 547.4K by the end of FY13'' and ``520.4K by the end of 
FY16''. Further, you noted that this will be accomplished through 
reducing recruitment goals, lowering retention requirements and natural 
attrition. It seems to me that these built-in, environmental measures 
for reducing end-strength may limit sudden disruption to Army units, 
but they also reduce the amount of control the Army will have over how 
they occur. What measures can the Army take to ensure that any force 
reduction occur in a manner that allows installations and commanders, 
as well as military communities, to fully prepare for any future end 
strength reductions?
    General Chiarelli. The Army Staff is actively engaged with 
supporting the development of OSD plans to help ensure that 
installations, commanders, and military communities can adequately 
prepare for any future end strength reductions. Planning includes a 
full range of options under varying timelines to ensure any DoD 
reductions are completed in accordance with OSD directives taking into 
consideration operational readiness and the impact on the Army's most 
valuable resource, Soldiers and Families.
    The Army is seeking reinstatement or creation of separation 
authorities to enable voluntary and involuntary force shaping actions 
between now and 2017. The Army will likely need to exercise the full 
extent of voluntary and involuntary force shaping measures to maximize 
flexibility and minimize the impact on Soldiers and Families as we size 
and shape our force to achieve a balanced end-strength. We are 
currently working within DoD to scope the measures that will be 
necessary, and, where appropriate, the Department will seek legislative 
authority to help us shape the force.
    Mr. Owens. It is no secret that the U.S. Army has a difficult 
history in the procurement of major weapons programs. As reported in 
the Washington Post earlier this year, a recent study commissioned by 
the Army shows that between 1995 and 2009, the Pentagon spent more than 
$32 billion on weapons programs that were eventually cancelled. These 
include the Crusader Cannon, the Comanche Helicopter and others. While 
the scope of this hearing does not include specific systems, I remain 
concerned about the potential to spend funds on assets that will never 
help our men and women in the field, while installations like Fort Drum 
in my Congressional District continue to make sacrifices to meet new 
budget realities. Do you believe the Army is taking sufficient steps to 
prevent a reoccurrence of these weapons cancellations, and is there 
potential to use even a portion of those savings to meet budget 
shortfalls at installations here at home?
    General Chiarelli. In order to address the challenges with the 
development of major weapons systems, the Army undertook an 
unprecedented review of the Army Acquisition process. The Decker-Wagner 
panel, commissioned by the Secretary of the Army, examined weapons 
system procurements from ``cradle to grave'' with a key focus on 
properly defining requirements. The panel discovered that many of the 
Army's development and procurement problems stemmed from pursuing 
requirements that ultimately did not match the needs of the Soldier, 
were cost prohibitive or were technologically infeasible. The Army has 
been working to rapidly review and implement many of the innovative 
recommendations.
    These efforts will not only support a stable modernization 
strategy, but will also result in producing systems that are timely, 
within budget parameters, and meet the needs of the Soldier. As the 
Army implements sweeping changes to its acquisition system, lessons 
learned from its efforts will be infused into other procurements across 
the Services and the Department.
    As part of his comprehensive efforts to reform Army acquisition, in 
February 2010, Secretary McHugh ordered Army-wide ``capability 
portfolio reviews'' (CPR) to revalidate requirements through a wide 
range of criteria, including Combatant Commander requests, wartime 
lessons learned, the leveraging of emerging technologies, elimination 
of redundancy, and system affordability. Each review examines systems 
across a certain spectrum to make recommendations for modernization 
improvements or, if appropriate, project terminations. The Army is 
already realizing significant savings through terminations and 
avoidance of unnecessary program costs. CPRs are designed to get the 
right system, with the best technology to the warfighter at the right 
time.
    The Army's top modernization priorities--the Ground Combat Vehicle 
(GCV) and the Network, provide opportunities to leverage proven 
technology, as well as use lessons learned from other programs. The 
Army must have a combat vehicle fleet and information technology 
infrastructure that allows our primary ground forces to handle full 
spectrum missions from regional conflicts, hybrid threats, hostile 
state actors to natural disasters and humanitarian relief efforts. 
Regarding the GCV, our Soldiers need a single, modern armored vehicle 
to take them to the fight. The Army's Network modernization will enable 
the rapid flow of large amounts of critical data on the battlefield, 
down to the individual Soldier. Both programs are seeking to leverage 
harvested technologies, as well as state-of-the-art developments, to 
ensure the systems are affordable and ready for adaptation to 
accommodate needed future capabilities.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
